<html>
<title> - REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                              
          REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 7, 2019

                               ----------                              

                            Serial No. 116-7

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         



         
         


    Available on: http://www.judiciary.house.gov or www.govinfo.gov
    
    
    
    
    
    
    
    
    
    
    
    
           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT
           
           
           
           
           


 
           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                            Serial No. 116-7

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         

         


    Available on: http://www.judiciary.house.gov or www.govinfo.gov
    
    
    
    
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
36-562                WASHINGTON : 2020     
    
    
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                     KAREN BASS, California, Chair
                    VAL DEMINGS, Florida, Vice-Chair
SHEILA JACKSON LEE, Texas            JOHN RATCLIFFE, Texas,
LUCY McBATH, Georgia                   Ranking Member
TED DEUTCH, Florida                  F. JAMES SENSENBRENNER, Jr.
CEDRIC RICHMOND, Louisiana             Wisconsin
HAKEEM JEFFRIES, New York            STEVE CHABOT, Ohio
DAVID N. CICILLINE, Rhode Island     LOUIE GOHMERT, Texas
TED LIEU, California                 TOM McCLINTOCK, California
MADELEINE DEAN, Pennsylvania         DEBBIE LESKO, Arizona
DEBBIE MUCARSEL-POWELL, Florida      GUY RESCHENTHALER, Pennsylvania
STEVEN COHEN, Tennessee              BEN CLINE, Virgina
                                     W. GREGORY STEUBE, Florida
                   Joe Graupensperger, Chief Counsel
                    Jason Cervenak, Minority Counsel
                    
                            C O N T E N T S

                              ----------                              

                             MARCH 7, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Karen Bass, a Representative in Congress from the 
  State of California, and Chairwoman of the Subcommittee on 
  Crime, Terrorism, and Homeland Security
    Oral Testimony...............................................     1
The Honorable Doug Collins, a Representative in Congress from the 
  State of Georgia, and Ranking Member of the House, Committee on 
  the Judiciary
    Oral Testimony...............................................     3
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman of the House, Committee on 
  the Judiciary
    Oral Testimony...............................................    15
The Honorable John Ratcliffe, a Representative in Congress from 
  the State of Texas, and Ranking Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security
    Oral Testimony...............................................    16

                               WITNESSES

The Honorable Ramona A. Gonzalez, Presiding Judge, State of 
  Wisconsin Circuit Court, La Crosse, WI
    Oral Testimony...............................................    18
    Prepared Statement...........................................    21
Professor Sarah Deer, School of Public Affairs & Administration, 
  University of Kansas, Lawrence, Kansas
    Oral Testimony...............................................    30
    Prepared Statement...........................................    32
Ms. Julia Beck, Former Law and Policy Co-Chair, Baltimore City's 
  LGBTQ Commission, Baltimore, MD
    Oral Testimony...............................................    41
    Prepared Statement...........................................    43
Ms. Roberta Valente, Policy Consultant, National Coalition 
  Against Domestic Violence, Takoma Park, MD
    Oral Testimony...............................................    48
    Prepared Statement...........................................    50

          LETTER, MATERIAL, ARTICLES SUBMITTED FOR THE RECORD

Letter from the National District Attorneys Association to 
  Representative Jerrold Nadler, a Member of Congress of New 
  York, Chairman of the Committee on the Judiciary and 
  Representative Doug Collins, a Member of Congress of the State 
  of Georgia, Ranking Member of the Committee on the Judiciary...     6
Letter from Survivor-Led and Anti-Trafficking Organizations with 
  Programs to Representative Nancy Pelosi, a Member of Congress 
  of California, Speaker of the U.S. House of Representatives; 
  Representative Jerrold Nadler, a Member of Congress of New 
  York, Chairman of the Committee on the Judiciary; 
  Representative Sheila Jackson Lee, a Member of the Committee on 
  the Judiciary; and Representative Doug Collins, a Member of 
  Congress of the State of Georgia, Ranking Member of the 
  Committee on the Judiciary.....................................     7
Materials from Karen Earl, Chief Executive Office of the 
  Signature Programs, and the Jenesse Center, Inc., Domestic 
  Violence Intervention & Prevention Programs to Representative 
  Karen Bass, Chairwoman of the Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    70
Materials on a report of the 2015 United States Transgender 
  Survey-Race and Ethnicity of Adults Who Identify as Transgender 
  in the United States submit by Representative David Cicilline, 
  a Member of the Subcommittee on the Crime, Terrorism and 
  Homeland Security..............................................   129
Materials regarding the National Consensus of Anti-sexual Assault 
  and Domestic Violence in Full Support of Equal Access or 
  Transgender Community ``Transgender Population Size in the 
  United States: Meta-Regression of Population-Based Probability 
  Samples'' submit by Representative David Cicilline, a Member of 
  the Subcommittee on the Crime, Terrorism, and Homeland Security   111
Article--More than 250 Sexual Assault, Domestic Violence 
  Organizations Condemn Anti-Trans Legislation submit by 
  Representative David Cicilline, a Member of the Subcommittee on 
  the Crime, Terrorism, and Homeland Security....................   145
Article--University of California (UCLA) School of Law and The 
  William Institute regarding Gendered Restrooms and Minority 
  Stress: The Public Regulation of Gender and its Impact on 
  Transgender People's Lives, submit by Representative David 
  Cicilline, a Member of the Subcommittee on the Crime, 
  Terrorism, and Homeland Security...............................   149
Report--Federal Bureau of Investigations (FBI) Releases 2017 Hate 
  Crime Statistics, submit by Representative David Cicilline, a 
  Member of Congress from the State of Rhode Island and a Member 
  of the Subcommittee on the Crime, Terrorism, and Homeland 
  Security.......................................................   164
Article--Gender Identity Nondiscrimination Laws in Public 
  Accommodations: A Review of Evidence Regarding Safety and 
  Privacy in Public Restrooms, Locker Rooms and Changing Rooms 
  submit by, Representative David Cicilline, a Member of Congress 
  from the State of Rhode Island and a Member of the Subcommittee 
  on the Crime, Terrorism, and Homeland Security.................   169

                                APPENDIX

The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas........................................   194
Letter from Kim Gandy, President and CEO, National Network to End 
  Domestic Violence (NNEDV) to Representative Karen Bass, a 
  Member of Congress of the State of California and Chairwoman of 
  the Subcommittee on Crime, Terrorism, and Homeland Security and 
  Representative Brian Fitzpatrick, a Member of Congress from the 
  State of Pennsylvania..........................................   199
Letter from Esta Soler, President and Founder with Futures 
  Without Violence to Representative Karen Bass, a Member of 
  Congress from the State of California, and Chairwoman of the 
  Subcommittee on Crime, Terrorism, and Homeland Security and 
  Representative Brian Fitzpatrick, a Member of Congress from the 
  State of Pennsylvania..........................................   200
Letter from Dave Garcia, Director of Policy and Community 
  Building of the Los Angeles LGBT Center to Representative Karen 
  Bass, a Member of Congress from the State of California and 
  Chairwoman of the Subcommittee on Crime, Terrorism, and 
  Homeland Security and Representative Brian Fitzpatrick, a 
  Member of Congress from the State of Pennsylvania..............   201
Letter from Lynn Hecht Schafran, Senior Vice President, Legal 
  Momentum, the Women's Legal Defense and Education Fund to 
  Representative Karen Bass, a Member of Congress of the State of 
  California, Chairwoman of the Subcommittee on Crime, Terrorism, 
  and Homeland Security and Representative John Ratcliffe from 
  the State of Texas, Ranking Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security........................   202
Letter from the National Coalition of Anti-Violence Programs 
  (NCAVP) to Representative Karen Bass, a Member of Congress of 
  the State of California and Chairwoman of the Subcommittee on 
  Crime, Terrorism, and Homeland Security and Representative 
  Brian Fitzpatrick, a Member of Congress from the State of 
  Pennsylvania...................................................   204
Letter from the National Task Force to End Sexual and Domestic 
  Violence to Representative Karen Bass, a Member of Congress of 
  the State of California and Chairwoman of the Subcommittee on 
  Crime, Terrorism, and Homeland Security and Representative John 
  Ratcliffe, a Member of Congress from the State of Texas, 
  Ranking Member of the Subcommittee on Crime, Terrorism and 
  Homeland Security..............................................   205
Written Testimony of Terri Poore, Policy Director, National 
  Alliance to End Sexual Violence Concerned Women for America 
  Legislative Action Committee Statement for the Record..........   225
Written evidence submitted by Dr. James Barrett, President, 
  British Association of Gender Identity Specialists submitted 
  regarding written Evidence by British Association of Gender 
  Identity Specialists to the Transgender Equality Inquiry.......   229
Special Report from U.S. Department of Justice, Office of Justice 
  Programs, Bureau of Justice Statistics, Sexual Victimization 
  Reported by Adult Correctional Authorities, 2012-15............   239
Violent Men In Women's Jail And Prison Facilities--Stories from 
  New York, Massachusetts and California.........................   259
Concerned Women for America Legislative Action Committee 40th 
  Anniversary 1979-2019..........................................   261
WOLF, Women's Liberation Front, US Equality Act: Gender Identity 
  Impact Summary.................................................   263
Prison Rape Elimination Act of 2003, PREA Data Collection 
  Activities, 2018, U.S. Department of Justice, Office of Justice 
  Programs, Bureau of Justice Statistics.........................   265


           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT

                              ----------                              


                        THURSDAY, MARCH 7, 2019

                        House of Representatives

        Subcommittee on Crime, Terrorism, and Homeland Security

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Karen Bass 
[chair of the subcommittee] presiding.
    Present: Representatives Bass, Nadler, Jackson Lee, 
Demings, McBath, Richmond, Jeffries, Cicilline, Lieu, Dean, 
Mucarsel-Powell, Cohen, Ratcliffe, Collins, Gohmert, Chabot, 
Steube, Lesko, Reschenthaler, and Cline.
    Staff Present: Amy Rutkin, Chief of Staff; John Doty, 
Senior Advisor; Susan Jensen, Parliamentarian and Senior 
Counsel; Joe Graupensperger, Chief Counsel on Subcommittee on 
Crime, Terrorism, and Homeland Security; Monalisa Dugue, Deputy 
Chief Counsel, Subcommittee on Crime, Terrorism, and Homeland 
Security; David Greengrass, Senior Counsel; Veronica Eligan, 
Professional Staff Member; Milagros Cisneros, Crime Detailee; 
Madeline Strasser, Chief Clerk; Moh Sharma, Policy Outreach 
Counsel; Lisette Morton, Legislative Director; Sally Rose 
Larson, Minority Counsel; Jason Cervenak, Minority Counsel; and 
Andrea Woodard, Minority Professional Staff Member.
    Ms. Bass. The subcommittee will come to order. Without 
objection, the chair is authorized to declare recesses of the 
subcommittee at any time. We welcome everyone to this morning's 
hearing on the reauthorization of the Violence Against Women 
Act. I will now recognize myself for an opening statement.
    I am pleased that the Subcommittee on Crime, Terrorism, and 
Homeland Security is holding our first hearing of this 116th 
Congress, about our critical duty to reauthorize the Violence 
Against Women Act. This law has been successful at attempting 
to change policies that have led to injustices, and too often, 
indifference to victimization and suffering throughout our 
country's history. It is important to review how we arrived at 
this moment.
    This month has a special significance that is relevant to 
this hearing, because it is celebrated as the Women's History 
Month. In 1980, President Jimmy Carter first designated March 
2nd through the 8th as Women's History Week. Seven years later, 
in 1987, Congress passed public law 100-9, designating March as 
Women's History Month. Seven years after that, in 1994, 
Congress passed Public Law 103-322, the Violence Against Women 
Act of 1994, which we call VAWA, a landmark piece of 
legislation which began with bipartisan support in both the 
House and in the Senate.
    This year, we celebrate the 25th anniversary of VAWA, since 
President Bill Clinton signed the first VAWA into law on 
September 13, 1994. On this day, March 7, President Barack 
Obama signed our last VAWA in 2013. And today, on the sixth 
anniversary of VAWA's last passage, we are holding this hearing 
to address the urgency of now, in reauthorizing this vital 
legislation, which addresses the needs of all victims and 
survivors of domestic violence, dating violence, sexual 
assault, and stalking.
    As a result of this historical legislation, which has 
unarguably proven critical in the lives of so many survivors, 
every State has enacted laws making stalking a crime, and 
strengthened their criminal rape statutes. While this 
legislation is named the Violence Against Women Act, this is 
gender-neutral legislation, which responds to the needs and 
care of all survivors--men, women, and children alike.
    For centuries, women have fought vigorously to demand 
changes in our Federal law, not simply for their own benefit, 
but for others as well. Because they sought progress, VAWA is 
no exception in that regard. As Shirley Chisholm once said, You 
don't make progress by standing on the sidelines whimpering and 
complaining; you make progress by implementing ideas.
    We have made progress in VAWA 2000, 2005, and 2013, but the 
statistics remain alarming and unacceptable. Domestic violence 
claims at least 2,000 lives each year. Seventy percent of the 
victims are women. Most intimate partner homicides in which a 
person targets a spouse, boyfriend or girlfriend, are committed 
with firearms.
    An astounding 17,500 victims disclose the use or threat of 
firearms being used during abuse. We must hold abusers 
accountable, provide vital services, and promote safe 
environments where survivors are protected. The #MeToo movement 
continues to remind us that we can never remain complacent, and 
instead, we must always shed light on the prevalence of 
violence against women, men, and children.
    We must not ignore the even greater recognition by our 
citizens exemplified by the #MeToo movement, that we must 
insist on taking action now, and we must act to reauthorize and 
strengthen VAWA so that it meets today's challenges.
    In the most recent 2018 impact report by the National 
Domestic Violence Hotline, more than 370,000 total calls were 
answered. Of that amount, more than 200,000 calls, chats, and 
texts went unanswered due to the lack of resources. In those 
contacts made, 83,000 victims reported that their abusive 
situation involved children; 13,000 victims experience 
stalking; almost 7,500 cited suicidal threats from their 
abusive partners; while 4,000 cited thoughts of suicide 
themselves.
    VAWA provides grants that help break the cycle of domestic 
violence. These vital resources save lives by assisting, women, 
men, and children, as they flee abuse and heal from trauma. The 
grants also support training for law enforcement, prosecutors, 
judges, service providers, and communities to provide 
comprehensive support to victims, hold offenders accountable, 
and keep our communities safe.
    Prior to VAWA, law enforcement lacked the resources and 
tools to respond effectively to domestic violence and sexual 
assault. Each reauthorization of VAWA has improved protections 
for women and men, while helping to change the culture and 
reduce the tolerance for domestic violence, sexual assault, 
dating violence, and stalking.
    VAWA-funded programs have provided victims with critical 
services, such as transitional housing, legal assistance, and 
supervised visitation services. VAWA has led to increased 
reporting of sexual assault, and increased ability of victims 
to flee abuse. It has also helped address the unique barriers 
faced by rural, area--elderly, and disabled victims.
    Despite these gains, much work remains to be done to 
address the unmet needs of survivors. We must hold abusers 
accountable, provide vital services, and promote safe 
environments where survivors are protected. The #MeToo movement 
continues to remind us that we can never remain complacent, and 
instead, we must always shed light on the prevalence of 
violence against women, men, and children.
    We must not ignore the even greater recognition by our 
citizens, exemplified by the #MeToo movement, that we must 
insist on taking action now, and we must act to reauthorize and 
strengthen VAWA so that it meets today's challenges. That is 
why I look forward to hearing from our panel of expert 
witnesses to help us understand these issues, the successes of 
VAWA, and the need to do even more to strengthen the law.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from Texas, Mr. Ratcliffe, for 
his opening statement.
    Mr. Ratcliffe. Madam Chair, if I may beg the chair's 
indulgence to change the order of opening statements, so that 
the gentleman--the ranking member of the full committee, Mr. 
Collins, could be recognized for his opening statement.
    Ms. Bass. Absolutely.
    Mr. Collins. Thank you, and I appreciate it, and I 
appreciate the indulgence of the chairman. I appreciate that. 
Chair Bass, I thank you for holding this hearing today and 
share your belief that the reauthorization of the Violence 
Against Women Act is critical, and appreciate the opportunity 
to hear from our witnesses that are going to be talking about 
this.
    The Violence Against Women Act was first signed into law in 
1994, when the domestic violence was largely considered a 
hidden crime. The law signaled awareness of the need to stop 
the growing tide of domestic violence and sexual assault. While 
this law has helped us take great strides in the right 
direction, unfortunately domestic violence and sexual assault 
are still far too prevalent today, and those crimes continue to 
disproportionally impact women. That is why we need to 
reauthorize the Violence Against Women Act and make sure it is 
working and focusing on those it was intended to help.
    House Republicans tried to reauthorize the VAWA Act through 
the end of fiscal year, but Democrats blocked that 
reauthorization. We wanted to insure that this program remained 
up and running, while discussions continued about ways to 
improve the current law. We remain willing and ready to work 
across the aisle, and with our Senate partners to reauthorize 
VAWA.
    Unfortunately, my understanding is that the Democratic 
majority intends to introduce their VAWA reauthorization from 
last Congress, and it is my understanding--I just found out--to 
actually mark it up next week. This radical legislation stands 
no chance of becoming law, and is merely evidence of the 
majority's regrettable intent to weaponize this important piece 
of legislation to score political points. That is fundamentally 
unfair to women and all who depend on the services these 
programs provide.
    I look forward to hearing from our witnesses today and 
working to reauthorize VAWA in a way that reduces violence, 
protects victims, and ensures that the law works as intended.
    I would also like to ask unanimous consent to enter into 
the statements from the Coalition Against Trafficking Women, 
the ``National District Attorneys Association,'' and a letter 
from a group, ``Survivors Lead,'' the organization, into the 
record. And with that, I yield back.
    [The information follows:]
      

                    RANKING MEMBER COLLINS FOR THE 
                            OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Bass. Thank you very much. I am now pleased to 
recognize the chairman of the full committee, the gentleman 
from New York, Mr. Nadler, for his opening statement.
    Chairman Nadler. I thank the chair. I thank the chair for 
holding this important hearing today and for her leadership in 
the effort to reauthorize the Violence Against Women Act. I 
also want to thank Ms. Jackson Lee for her longstanding and 
tireless efforts over the years to protect and strengthen the 
Act.
    This critical statute, which we often refer to as VAWA, was 
signed into law in 1994, to help ensure that women in America 
are free from violence and free from fear. At the time VAWA was 
enacted, it was all too common for violent crimes against women 
to go without appropriate response and to remain unaddressed by 
the criminal justice system.
    Although there is still much to do, VAWA represented a 
historical shift in the Federal role in combating these crimes. 
Congress began to take seriously its role in ensuring that 
communities in America have the tools needed to combat the 
crimes of domestic violence, dating violence, sexual assault, 
and stalking.
    Since then, victims, survivors, in the communities where 
they live, have relied on Congress to help provide the 
resources needed to prevent and investigate these crimes and to 
assist survivors. And these programs and resources are, 
unfortunately, still necessary. Every year, approximately 7.9 
million women experience the crimes of rape, physical violence, 
or stalking by an intimate partner. And an average of three 
women are killed every day by a current or former intimate 
partner.
    VAWA, which is not gender exclusive, addresses the needs of 
men and women, children, persons with disabilities, homeless 
people, and LGBTQ people, among others. The range of 
individuals VAWA helps is broad and is as diverse as our 
communities around the country.
    Our engagement as a Congress with the issues VAWA addresses 
has only served to highlight the severity of these problems. 
VAWA has changed the landscape of how we talk about the issue 
of violence in the home, in the workplace, and in society at 
large. More importantly, VAWA has had, and continues to have, a 
positive impact on people who rely on its assistance, whether 
directly or indirectly. Through grants to State and local 
governments, the Office on Violence Against Women and the 
Department of Justice funds the work of thousands of advocates 
in preventing and addressing domestic violence, dating 
violence, sexual assault, and stalking, and in assisting in 
training law enforcement and victim advocates.
    Grants administered through the Department of Health and 
Human Services provide funds for shelters, rape prevention and 
education, programs to address and reduce the sexual abuse of 
runaways and homeless youth, and community programs to educate 
the community on domestic violence. The reach of the work 
carried out under VAWA is vast, and we must continue to support 
it.
    The goal of putting an end to domestic violence, dating 
violence, sexual assault, and stalking, once and for all, will 
only be achievable if we, as a Congress, are engaged and 
committed to it. Because of its importance and success, VAWA 
was reauthorized on a bipartisan basis in 2000, in 2005, and 
again, in 2013.
    Unfortunately, not only did VAWA expire without being 
reauthorized, but because of the foolish government shutdown, 
we even had a lapse in appropriations for VAWA earlier this 
year, which jeopardized funding for domestic-violence shelters. 
But our task now is not just to reauthorize VAWA, but to 
enhance and expand it and make it even more effective.
    I know there are many people here today, including our 
witnesses and many of our members who have been working 
tirelessly to support victims and survivors as they seek to 
live full lives after suffering traumatic experiences. Often, 
the people who do this type of work are survivors themselves. 
Thank you for your hard work and for being here.
    For them, and for all of our communities, we must 
reauthorize and reinforce VAWA now. It is fitting that we 
discuss this issue during Women's History Month, and I look 
forward to hearing from our witnesses and working with my 
colleagues on this important legislation.
    Thank you and I yield back the balance of my time.
    Ms. Bass. Now, it is my pleasure to recognize the ranking 
member of the subcommittee, the gentleman from Texas, Mr. 
Ratcliffe, for his opening statement.
    Mr. Ratcliffe. Thank you, Chair. I do want to thank each of 
the witnesses for being here today to testify.
    As a Federal prosecutor, I had the privilege for many years 
of seeing firsthand the profound impact of the Violence Against 
Women Act. I saw and I learned so much from working with the 
Department of Justice's Office on Violence Against Women. But 
for all the women that I know, and that I saw VAWA has helped, 
as a prosecutor, I can't help but think about and remember all 
of the women who weren't so fortunate, women whose husbands or 
boyfriends put them in cemeteries because those husbands or 
boyfriends drank too much, or became jealous too much, or 
because they just liked to hit women too much. And because of 
that, I know what is at stake, if we don't reauthorize VAWA.
    VAWA can and should provide all women a safe harbor who 
need one. It can and should provide a means for all women to 
leave abusive relationships. It can and should provide the 
counseling needed by any woman to survive the abuse and 
violence they have endured. VAWA can and should facilitate and 
accelerate the prosecution of sexual assault cases, so that 
women, as they wait for their case to go to trial, don't have 
to live in fear that they might suffer more abuse or violence.
    Madam Chair, we owe survivors of domestic violence a bill 
that doesn't water down these services for women. As with any 
proposal before Congress, we should be vigilant in conducting 
oversight to ensure that taxpayer dollars are used effectively, 
and because the principle objectives for VAWA programs are the 
mitigation, the reduction, and the prevention of the effects 
and occurrences of domestic violences, then we should target 
those objectives.
    We owe it to survivors and victims of domestic violence, an 
obligation to ensure that we are not duplicating grants that 
are housed at other various Federal agencies.
    We owe them transparency and accountability and support for 
rigorous evaluations of existing VAWA programs to make sure 
that these programs are working as intended for those they are 
intended to help.
    These policies should be noncontroversial. Who would object 
to requiring greater accountability in increased prioritization 
of the processing of untested, sexual-assault kits? Who would 
object to providing protection for faith-based providers and 
religious organizations which work with survivors of domestic 
violence and human trafficking? If we don't protect faith-based 
providers and religious organizations from being discriminated 
against, then we are, in fact, reducing access for survivors of 
violence.
    Madam Chair, as a prosecutor in cases involving violence 
against women, I never once asked a victim if she was a 
Republican or a Democrat. I never once asked a rape counselor 
if he or she was a Republican or a Democrat. I never asked the 
parents of a victim if they were Republican or Democrat. I 
never asked because some things are more important than 
politics, and protecting women who need protection from 
violence is one of those things.
    So it is my hope that this body, that this Congress, can 
agree on a bipartisan and noncontroversial reauthorization of 
the Violence Against Women Act. That is my hope, but it is my 
fear that this committee's majority will instead push forward 
with a partisan bill that is intended to score political 
points. That is my fear, because when the current 
reauthorization expired on February 15th of this year, it did 
so because Democrats, now in the majority of this House, 
refused to include a simple extension for the reauthorization 
of VAWA, until the end of the fiscal year.
    Last month, Madam Chair, Democrats indicated that they 
wanted to use VAWA as a political bargaining chip. I applaud my 
colleague, Congresswoman Lesko, herself a survivor of domestic 
violence, for her dedicated efforts to enact a clean extension 
of the existing law, a clean extension that would have ensured 
that VAWA, and the critically important role that it plays, 
would not have lapsed.
    So as we move forward with today's hearing, I echo her 
request for Members of this committee and of this Congress, to 
come forward in a bipartisan fashion to pass an extension of 
VAWA instead of trying to score political points against each 
other. Instead of trying to score political points for once, it 
is my hope, and it is my plea that maybe this body can speak 
for all women who need our help to survive the abuse and 
violence they have suffered, and also to speak for those 
victims who weren't so fortunate. I yield back.
    Ms. Bass. I will now introduce today's witnesses. The 
Honorable Ramona A. Gonzalez is the presiding judge of La 
Crosse County, Wisconsin, and the President-Elect of the 
National Council of Juvenile and Family Court Judges. Judge 
Gonzalez serves as faculty on the domestic-violence issue for 
the National Judicial Institute on Domestic Violence, and is a 
past member of the Wisconsin Anti-Human Trafficking Task Force, 
and is a current member of the Wisconsin Judicial Committee on 
Child Welfare.
    Professor Sarah Deer is a professor of women, gender, and 
sexuality studies in the School of Public Affairs & 
Administration of the University of Kansas. In 2014, she was 
named a MacArthur fellow. She is a member of the Muskogee Creek 
Nation, and is the Chief Justice for the Prairie Island Indian 
Community Court of Appeals. She has worked in violence against 
women for over 25 years and her scholarship focuses on the 
intersection between Federal Indian law and victim rights.
    Ms. Julia Beck is a member of the Women's Liberation Front 
and a former law and policy co-chair of Baltimore City LGBTQ 
Commission. She represented Women's Liberation Radio News at 
the 2018 Montreal massacre memorial, organized by the Vancouver 
Rape Relief and Women's Shelter.
    Ms. Rob Valente is a policy consultant for the National 
Coalition Against Domestic Violence, a member organization of 
the National Task Force to End Sexual and Domestic Violence. 
She has worked on each reauthorization--each authorization and 
reauthorization of the Violence Against Women Act. Ms. Valente 
also served as attorney advisor to the Office on Violence 
Against Women of the U.S. Department of Justice, and was the 
founding Director of the American Bar Association Commission on 
Domestic and Sexual Violence.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing. Now, if you would 
please rise, I will begin by swearing you in. Raise your right 
hand. Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    The Witnesses. I do.
    Ms. Bass. Thank you. Let the record show the witnesses 
answered in the affirmative. Thank you and please be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. I will help you 
stay on time by using the timing light on your table. When the 
light switches from green to yellow, you have 1 minute to 
conclude your testimony. When the light turns red, it signals 
your 5 minutes have expired, and I will make sure you know 
that.
    Ms. Gonzalez, you may begin.

    TESTIMONIES OF HON. RAMONA A. GONZALEZ, JUDGE, STATE OF 
 WISCONSIN CIRCUIT COURT, LA CROSSE; SARAH DEER, PROFESSOR OF 
  LAW, UNIVERSITY OF KANSAS, LAWRENCE, ON BEHALF OF SCHOOL OF 
  PUBLIC AFFAIRS & ADMINISTRATION; JULIA BECK, FORMER LAW AND 
    POLICY CO-CHAIR, BALTIMORE CITY'S LGBTQ COMMISSION; AND 
 ROBERTA VALENTE POLICY CONSULTANT, NATIONAL COALITION AGAINST 
               DOMESTIC VIOLENCE, TAKOMA PARK, MD

              TESTIMONY OF HON. RAMONA A. GONZALEZ

    Ms. Gonzalez. Good morning.
    Ms. Bass. I think your--it is not on.
    Ms. Gonzalez. Oh. Good morning.
    Ms. Bass. There you go.
    Ms. Gonzalez. All right. I have all of my notes in front of 
you in my statement, and based upon what I have just heard, I 
am not really going to say much about that.
    Chairman Bass, thank you very much for the invitation here. 
Ranking Member Ratcliffe, thank you so much.
    I am a judge. I am a circuit court judge. I am on the front 
lines, and I sit in a place on the majestic Mississippi River 
that allows me to see the world from a different viewpoint than 
you see here in Washington, D.C. I swear an oath to uphold the 
laws of my community, and to keep my community safe. It is my 
job to provide access to justice, to all of my constituencies 
and all of my citizens.
    As a member of the National Council of Juvenile and Family 
Court Judges, and as a president-elect, I also stand before you 
as one of the many jurists across the country that struggle 
with these issues. These issues are about people, access to 
justice, and trouble,--trouble that they have every day.
    Every day, in my courtroom, I see individuals who are 
arrested the night before on a domestic case. I see those 
partners come into court and beg me not to impose no-contact 
orders. They don't want intervention that is ineffective. What 
they want is the violence to stop. How does that violence stop? 
Because we train judges and we train law enforcement, and we 
have a different social norm on what we mean by dealing with 
this issue of domestic violence, sexual assault, teen dating, 
and stalking.
    It is not about just women. It is about human beings. The 
trauma that has increased in our courtrooms today, based upon 
the crisis that families have, is an emergency. It has been 
addressed by VAWA in the past. It needs to be enhanced in the 
future. Because what we intended with this legislation in the 
beginning, on that 24 years ago, was to end this violence. We 
were not just to protect women. We were ending the violence.
    I would like to tell you a story. A woman is arrested. She 
has five kids. They found that she took Lorazepam. The officers 
are afraid that she may not be right to take care of her kids. 
So law enforcement was called, everybody gets called, and in 
fact, she is arrested, her children are removed. What we don't 
know is that the other tip of the iceberg of this family, is 
that the father of these children is using domestic violence 
against her, terrorizing her and her family.
    This, ladies and gentlemen, will cause a tremendous amount 
of emotional and financial difficulty and stress for my 
community if we do not address that woman's issues. But we 
cannot just take the picture of what happened with her drug 
use. We cannot just take the picture of what happened with the 
violence from him. It must be looked at as a wholistic family, 
and solve the problems holistically, with an understanding of 
the dynamics of domestic violence. That dynamic, we are better 
informed about after all these years.
    It is really a great hope that we will end this violence, 
but it will not happen unless we open our hearts and our minds 
to understand that it is not just those who die, who lose their 
lives to this violence that are important, but it is those that 
must keep on living, those that must get up every day and go to 
work, those that must every day decide whether they will stay 
in that relationship or lose their homes, because there are 
people going homeless because they cannot find housing as a 
result of what we do, completely unintended.
    I see these cases from the traffic ticket to the murder 
trial, and I am going to tell you in every single case, 
criminal or civil, the issue of domestic violence has an impact 
on the people that I am seeing. I may not see it, but another 
well-trained judge may see it. Law enforcement may see it. And 
it is all because of the programs and the efforts that VAWA has 
started.
    I thank you for the opportunity today, and I look forward 
to answering your questions.
    [The statement of Ms. Gonzalez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Bass. Thank you, Judge Gonzalez.
    Professor Deer.

                    TESTIMONY OF SARAH DEER

    Ms. Deer. Chair Bass, ranking member Ratcliffe, and members 
of the committee, I would like to express my deep appreciation 
and thanks for inviting me to testify today on the 
reauthorization of the Violence Against Women Act. I am a 
citizen of the Muskogee Creek Nation of Oklahoma, and I 
currently hold a position as professor at the University of 
Kansas. And I also serve as the Chief Justice for the Prairie 
Island Indian Community Court of Appeals. However, today I am 
testifying in my personal capacity.
    Each time VAWA has been reauthorized, it has included 
important provisions aimed at increasing safety for Native 
victims. The last reauthorization of VAWA in 2013 was a 
particularly groundbreaking law that addressed numerous 
concerns that had been raised by Native women for decades. From 
a Tribal perspective, it was the most important reauthorization 
of VAWA to date, because it created fundamental, structural 
changes to Federal Indian law, and reaffirming Tribal 
jurisdiction.
    Despite the tremendous success of VAWA 2013, there is more 
work to do. I will focus my testimony on areas where VAWA can 
continue to be strengthened to do even more to protect the 
lives of Native people throughout the United States.
    The Department of Justice's own statistics continue to 
reveal a tragedy, that Native women are living lives marked by 
repeated, continued violence. According to the most recent data 
from the National Institute of Justice, more than four in five 
American Indian and Alaska Native women, or 84 percent, have 
experienced violence, and more than half will experience some 
form of sexual violence as well.
    The ways of violence against Native, gay, lesbian, 
bisexual, two-spirit people is also unacceptable. American 
Indian and Alaska Native women are also significantly more 
likely to have experienced violence by an interracial 
perpetrator, and significantly less likely to experience 
violence by an intraracial perpetrator when compared to non-
Indian victims. This matters because Tribal Nations, with one 
exception, are not allowed to prosecute non-Indians for any 
crime. Jurisdiction over a crime in Indian country does depend 
on the Indian status of the offender.
    VAWA 2013 reaffirmed Tribal criminal jurisdiction over only 
three categories of crimes: domestic violence, dating violence, 
and criminal violations of protection orders. VAWA 2013, 
however, did not go far enough in addressing the high rates of 
violence, sexual and domestic crimes committed against Tribal 
citizens. It still leaves Tribal governments without the 
authority necessary to protect women, children, and Tribal law 
enforcement officers over domestic-violence crimes.
    Let's begin by talking about children. Native children, 
like their mothers, are exposed to very high rates of violence. 
The Attorney General's advisory committee on American Indian 
and Alaska Native children found that American Indian and 
Alaska Native children suffer exposure to violence at rates 
higher than any other race in the United States. Native 
children experience post-traumatic stress disorder at the same 
rates as veterans returning from Iraq and Afghanistan, and 
triple the rate of the general population.
    At this time, non-Native people who perpetrate crimes, 
including sexual assault and murder against Native children, 
cannot be prosecuted by the Tribal Government, and this 
injustice must be rectified. A recent example from a child 
case, a recent example of a child case from a Tribe located in 
Michigan, illustrates how this gap in the law has real 
consequences for Native victims.
    A non-Indian man, in an intimate relationship with a Tribal 
member, moved in with her and her 16-year-old daughter. After 
the man began making unwanted, sexual advances on the girl, 
sending inappropriate text messages, and on one occasion, 
groping the daughter, the Tribe charged the defendant with 
domestic abuse and attempted to tie the sexual assault against 
the daughter to a pattern of abuse against the mother. The 
Tribal court dismissed the charges for lack of jurisdiction, 
and the defendant left the victim's home.
    Four months later, he was arrested by city police for 
kidnapping and repeatedly raping a 14-year-old Tribal member. 
This kidnapping and rape of a minor could have been prevented 
if the Tribe had been able to exercise jurisdiction in the 
first case. I also want to mention the expansion of VAWA to 
address violence against Tribal law enforcement officers, 
because like State and law enforcement, a domestic-violence 
call is one of the most dangerous calls they will be asked to 
answer.
    Members of committee, the next reauthorization of VAWA can 
turn the corner on violence against Native women, and I urge 
you, I urge you, to heed the call of the thousands of victims 
who deserve justice. Mvto.
    [The statement of Ms. Deer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Bass. Thank you, Professor.
    Julia Beck.

                    TESTIMONY OF JULIA BECK

    Ms. Beck. Thank you all for being here today, and welcoming 
my testimony. I am honored to speak on the reauthorization of 
the Violence Against Women Act. I am a lesbian radical feminist 
and I am politically homeless. I--people on the left have tried 
to silence me by using threats and other tactics of 
intimidation, a kind of hatred that most lesbians would expect 
to receive from people on the right. I have been told to die in 
a fire, to get raped, and to choke on lady cock by members of 
the GBT community. My so-called allies cast me out for speaking 
about male violence. So I spoke with the only people who were 
willing to listen, people on the right, who usually never see 
eye to eye with lesbians or feminists.
    My presence before you today is a result of bipartisan 
organizing, because protecting women and girls should be a 
bipartisan issue. All women and girls are oppressed on the 
basis of our female sex. One form that this oppression takes is 
male violence. Male violence cannot exist in female space, 
because the distinct sex categories of female and male are 
mutually exclusive. Therefore, women and girls benefit from 
female space.
    In its earliest forms, VAWA defended female space. In 2013, 
protections for Native and global, majority women were 
enhanced, but one small addition to the Act dissolved all of 
its sex-based provisions. VAWA now protects the nebulous 
concept of gender identity, defined in Title 18 as actual or 
perceived gender-related characteristics. This is a circular 
definition. It is illogical and legally irresponsible.
    While sex is a vital statistic, gender and identity are 
not. VAWA was created for women and girls, not for those who 
feel like or identify as female. Woman is not a gender or a 
feeling. No one has ever been able to explain what ``feeling 
like a woman'' means without using sexist stereotypes. Women 
don't need to identify as female in order to be women. Woman 
means adult human female. New gender identity laws allow male 
people to claim womanhood. The Violence Against Women Act has 
become the ``Violence Against Anybody Act.'' Its original, sex-
based protections are now meaningless, because men with gender 
identities, who commit violence against women, are protected by 
Federal law. When gender identity wins, women and girls always 
lose.
    Many people think gender identity is the next frontier of 
social justice, but they couldn't be more wrong. Gender is 
based on rigid sex roles and superficial stereotypes that 
legitimize male dominance and female subordination. This 
harmful hierarchy is something that women and girls can never 
identify out of. Female fetuses cannot identify out of sex-
selective abortions. Global majority women cannot identify out 
of genital mutilation or forced impregnation.
    Women and girls are targeted by men because of our female 
sex, because the doctrine of gender codes females as subhuman. 
Girlhood is not all fun and games. Girlhood is survived. One in 
four girls will be sexually abused before they turn 18 years 
old, and 96 percent of people who sexually abuse children are 
male. For decades, women and girls have depended on VAWA to 
uphold and honor the integrity of female space. The first piece 
of U.S. legislation to even acknowledge the epidemic of 
violence against women is now a misogynistic Trojan Horse. Half 
the population is living in a state of emergency. Violence 
against women is a hate crime, but as of 2013, it is State-
sanctioned as long as perpetrators feel like they are women.
    People achieve nothing without first sharing a basis of 
unity. Everyone here, whether you are female or not, knows what 
a woman is. Everyone knows that violence against women is a 
sex-based issue. So for the sake of women and girls, please 
remove ``gender identity'' from VAWA. Every woman and girl in 
these United States deserves female-only space. Thank you.
    [The statement of Ms. Beck follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Bass. Thank you.
    Ms. Valente.
    Ms. Valente. I think we have to reset that or--oh.
    Ms. Bass. Just a second.

               TESTIMONY OF ROBERTA (ROB) VALENTE

    Ms. Valente. Thank you. Chair Bass, ranking Member 
Ratcliffe, Chairman Nadler, and members of the committee, thank 
you all for inviting me to testify before you about the 
reauthorization of the Violence Against Women Act. It is not 
only 25 years old today, but the third reauthorization was 
signed into law this very day 6 years ago. My name is Rob 
Valente, and I am a policy consultant for the National 
Coalition Against Domestic Violence, the oldest, national 
coalition of grassroots advocates, an organization serving and 
advocating for survivors of domestic violence. The National 
Coalition Against Domestic Violence is a proud member of the 
National Task Force to End Sexual and Domestic Violence, also 
known as the NTF, a coalition of organizations representing the 
thousands of rape crisis centers, domestic violence victim 
advocacy and shelter programs, and other affiliated 
organizations, including faith-based organizations, who serve 
millions of survivors of sexual violence, domestic violence, 
dating violence, and stalking.
    The National Task Force leads the effort to reauthorize 
VAWA, ensuring that every time that VAWA's promise is renewed 
by Congress, VAWA's programs and laws are enhanced. VAWA was 
first passed by Congress in 1994, encouraging law enforcement, 
prosecution courts, and victim advocates to develop a 
coordinated response to these crimes, including in Tribal 
communities.
    In VAWA 2000, Congress added legal and housing services and 
established the UNTB as a program for victims of domestic 
violence and trafficking. And in 2005, VAWA's reauthorization 
further addressed the needs of culturally and linguistically 
specific populations, children, and Native victims.
    The result of the most recent survey by the NTF of the 
field for the VAWA 2013 overwhelmingly supported--I am sorry--
the results of the National Task Force survey of the field in 
2013 overwhelmingly supported the two major improvements we 
obtained in VAWA 2013: anti-discrimination protections against 
survivors on the basis of sexual orientation and gender 
identity, recognition of inherent Tribal jurisdiction to hold 
accountable non-Native perpetrators of domestic and dating 
violence.
    Between 2014 and 2016, VAWA grants provided more than 1 
million victim services for survivors of domestic violence, 
sexual violence, dating violence, and stalking, including 
almost 2 million shelter nights, 600,000 hotline calls, victim 
advocacy for almost 300,000 survivors, and legal services for 
almost 100,000.
    For the current reauthorization of VAWA, the NTF's 22 
subject matter work groups now offer the following 
recommendations:
    First, we must maintain all the important gains of the 
past. This is not the time to step back for our support for 
survivors. The NTF now offers modest but critical enhancements. 
My organization, the National Coalition Against Domestic 
Violence, is dedicated to ending domestic violence, firearms, 
homicides. You have heard some of those statistics from Chair 
Bass. We know that when these laws are implemented and 
enforced, homicide rates go down dramatically. To end this 
epidemic of firearms violence in domestic violence cases, we 
need a VAWA that improves the enforcement of existing, Federal, 
domestic violence-related firearms laws, and closes loopholes.
    So we ask Congress specifically to allow the use of stop 
grants to prevent intimate-partner firearm homicides; require 
the FBI to notify State, local, and Tribal law enforcement when 
an abuser fails a Brady background check; authorize the cross-
deputization of local prosecutors and law enforcement officers, 
especially U.S. assistant attorneys, and ATF agents, 
respectively, to help with enforcement; provide dating violence 
and stalking victims with the same protections ordered--
afforded to domestic violence victims; and protect victims with 
ex parte orders from firearm-involved abuse and homicide.
    We also need a comprehensive definition of ``domestic 
violence'' for grant programs. Currently, we have a definition 
of domestic violence in Title 18 of the U.S. Code that 
describes the elements of the crime of domestic violence. 
Abusers often employ abusive but noncriminal acts to maintain 
power and control over their victims, such as emotional abuse, 
isolation of the victim from support of friends and family, 
financial abuse, technological abuse, to control a victim.
    For victim services programs that must address all these 
forms of noncriminal abuse, we need a Social Services 
definition to clarify what victim services may address in 
alleviating the suffering of victims of domestic violence.
    We are also asking for improvements in prevention, increase 
in support for prevention and for programs for children. We 
want more done in the workplace to address sexual harassment. 
We thank you for listening to us, and appreciate this 
opportunity to speak to you about this.
    [The statement of Ms. Valente follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Ms. Bass. Thank you. Let me take the opportunity to thank 
all of the witnesses for taking the time to be here with us 
today. We will now proceed under the 5-minute rule with 
questions, and I will begin by recognizing myself for 5 
minutes.
    Judge Gonzalez, I know that you are a member of the 
Wisconsin Judicial Committee on Child Welfare, and I wanted to 
know if you would speak a few minutes about the impact of 
domestic violence on the Nation's child-welfare system. The 
story that you recalled about the woman that had taken a 
medication and the children were removed, maybe you could talk 
about the impact of domestic violence, what happens to the 
children, and the impact on the child-welfare system.
    Ms. Gonzalez. Thank you, Madam Chairwoman.
    That story does not have a very happy ending. That story 
was early on in my career before I had the kind of training, 
and before we developed the social norms to indicate that 
violence in the home permeates everything in the home, and it 
isn't just if kids are in the room. And that family, the 
ultimate result was, I sent that mother to prison, we sent that 
father to prison, and those children were in care for their 
entire lives. Some were adopted, some went back into--into 
care, and, ultimately, I do not have happy children in that 
household.
    Had I had the kind of training that was available now, when 
I started that case, I would have done things different. My law 
enforcement would have done things different. We would have 
looked at what those dynamics were that we are working. We 
would have looked at the trauma, that back then we didn't even 
know that word really existed.
    Ms. Bass. Right.
    Ms. Gonzalez. And all of that today, that case would come 
out completely different, because I would have law enforcement, 
I would have social workers, and I would have communities that 
understand the problem. Because we can't do this alone.
    And to--to Ranking Member Ratcliffe's point, we do work 
with the faith-based communities, to help us get these jobs 
done. Because quite frankly, we don't have enough resources to 
get it done.
    Ms. Bass. Well, what is done differently now? It is my 
understanding--and I hope I am wrong--that in the DV situation, 
that the children could still wind up being removed?
    Ms. Gonzalez. Absolutely. Absolutely. Because the issue 
becomes if the--if mom is--a mom or dad, because this is really 
gender neutral. If mom or dad is suffering from the terror of 
domestic violence, their ability to parent, their ability to 
parent those children is diminished. And so without knowing 
what we are doing, we are removing those children and saying, 
Okay, you have a problem, so go fix yourself, and then come 
back. That doesn't work.
    Ms. Bass. Right.
    Ms. Gonzalez. That doesn't work. The children have to be 
together with the family, and we have to help victims of 
violence know how--learn again how to--how to parent. And that 
includes the fathers, because----
    Ms. Bass. So this is still an issue. Because, you know, the 
trauma of being in a household where there is violence is bad 
enough.
    Ms. Gonzalez. Exactly.
    Ms. Bass. But then if you remove the children, separate 
them from the parent, the child is experiencing double trauma.
    Ms. Gonzalez. And many years later, when we have done our 
work, that child, who has been traumatized, is going to go 
right back to that biological family.
    Ms. Bass. Absolutely.
    Ms. Gonzalez. And what have we done?
    Ms. Bass. Well, let me ask Professor Deer, you talked about 
Tribes not being able to prosecute non-Indians. So if the 
person that--in the story that you told, that committed the 
rape outside, it was of an Indian woman?
    Ms. Deer. Yes.
    Ms. Bass. Or child, right?
    Ms. Deer. Yes. Both--both the mother and daughter.
    Ms. Bass. So if a person goes onto a Tribe, violates a 
women and then leaves, what happens? I understand the Tribe 
can't prosecute. Is it a situation where the offender gets off? 
I mean, nobody prosecutes them at all? Nobody goes after them 
because the crime took place on a Tribe?
    Ms. Deer. There is concurrent jurisdiction, depending on 
the Tribe of the State. I mean, Federal Indian law is a matrix 
of some sort. So, depending on which Tribe you are talking 
about, the Federal Government or the State government could 
have concurrent jurisdiction over that crime. The problem is--
--
    Ms. Bass. Why can't Tribes prosecute non-Indians?
    Ms. Deer. Tribes cannot prosecute non-Indians because the 
Supreme Court ruled in 1978, that Tribes had lost certain 
aspects of jurisdiction, but I will note that one of the final 
lines in the Oliphant decision was that Congress has the power 
to restore that jurisdiction.
    Ms. Bass. So that is something that we could change?
    Ms. Deer. Absolutely.
    Ms. Bass. So--okay. And you mentioned that--but this bill 
does not address that?
    Ms. Deer. I am sorry?
    Ms. Bass. The current proposal that is under discussion.
    Ms. Deer. I am not sure I know--I am not sure I know which 
version we would be talking about, but I am advocating for, and 
I believe many Native organizations are advocating for criminal 
jurisdiction over crimes against children committed by non-
Indians.
    Ms. Bass. And--okay. And you mentioned that one Tribe can. 
Which Tribe can do that?
    Ms. Deer. I am sorry?
    Ms. Bass. Didn't you say that there was one Tribe that was 
able to prosecute, or there is none, period?
    Ms. Deer. Oh, I am sorry. With the exception being the 
domestic violence crimes. VAWA 2013 does allow certain Tribes 
that meet certain benchmarks to prosecute, but only for cases 
of domestic violence, dating violence, and protection orders. 
So anything else--sexual assault, child abuse, homicide----
    Ms. Bass. Oh, I see. I see.
    Ms. Deer. Those crimes cannot be prosecuted by Tribal 
governments.
    Ms. Bass. Pretty crazy.
    Ranking Member Ratcliffe.
    Mr. Ratcliffe. Thank you, Chair. Ms. Beck, I enjoyed your 
testimony. As a self-described radical, lesbian feminist, I 
want to make sure that I--that the record is clear. You are not 
opposed to a gender identity ideology or those that question 
their birth gender. You are just opposed to the--its inclusion 
into legislation specifically designed to protect biological 
women at birth? Is that fair?
    Ms. Beck. No.
    Mr. Ratcliffe. Okay.
    Ms. Beck. That is not fair. Thank you for asking, though. 
Gender is not a biological reality. Sex is a biological 
reality. Like I said, ``gender'' describes the social 
expectations of behavior based on a person's sex. So women, 
female people, are expected to be feminine. We are expected to 
sit tight and look pretty. Men are expected to be strong and 
never cry. That is gender. And that should never be protected. 
We should actually abolish those kinds of expectations because 
they do not benefit women and girls. They actually don't 
benefit men either.
    So I don't agree with legislation that protects this idea 
of gender, or an identity with gender, because gender itself 
should not--it doesn't serve people, and we should not 
legislate on the basis of it, because it is always changing and 
it hurts. Gender hurts.
    Mr. Ratcliffe. So thanks for clarifying that. So with that, 
let me ask you: Do you believe that decisions that allow 
biological males access to programs and services that are 
intended to serve females actually pose a threat to those 
females?
    Ms. Beck. Of course, yes. The majority of the crime 
committed on this planet is committed by men. And when I say 
``men,'' I mean male people. So, yes, if any male person can 
identify himself as a woman, or use a gender-identity 
legislation to call himself a woman or call himself female, 
then he can go into a woman's space. Predatory men will do 
that, and they already have done that, in order to hurt women 
and girls. This is already happening.
    Mr. Ratcliffe. Thank you, Ms. Beck. I want to yield the 
balance of my time to my colleague from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you very much, Ranking Member. And thank 
you, Madam Chairman, for bringing this most important issue in 
front of us.
    I am a survivor of domestic violence. And I am one of the 
fortunate ones, because I left my abusive ex-husband over 25 
years ago. Never would have dreamed in a million years that I 
would be sitting here as a U.S. Congresswoman, so it gives hope 
to every single domestic-violence victim out there that you can 
do whatever you want.
    I am also the co-chairwoman of the Congressional Caucus for 
Women's Issues. And I have spoken to my counterpart on the 
Democrat side, and we really do want to work in a bipartisan 
fashion to protect women.
    I am also on an advisory council for domestic violence 
shelter in my congressional district, and I am also the co-
chairwoman of the bipartisan working group to end domestic 
violence. So if you haven't figured it out, this is kind of an 
important issue to me.
    So I am really trying to work in a bipartisan fashion to 
get something done here. My staff has reached out a number of 
occasions to my Democrat counterparts that I believe are 
involved in designing this new VAWA legislation, and haven't 
had success yet, getting together.
    And my chief of staff was recently at a meeting with the 
Senate, both House and Republican Senate members--I am sorry--
both House and Senate, both Republican and Democrat Members, 
and was told in that meeting that the House Democrats do not 
want to negotiate on this bill until they introduce their own 
bill. And so, I hope we can do that and get it done.
    Prior to 2013, the reauthorization of VAWA was actually 
quite noncontroversial. Unfortunately, in 2013, it became 
controversial, and it may even be more controversial and 
partisan now. And I hope that we can work together, because 
this is just too important of an issue. I do want to work with 
my Democratic colleagues from the other side. We need to 
reauthorize this. We need to work in a bipartisan fashion, 
because as was stated, this happens to so many women. It 
doesn't matter if they are Republican, Democrat, Libertarian. 
It doesn't matter. This is a problem, we need to fix it, and I 
stand ready to work in a bipartisan fashion to fix it. Thank 
you.
    And I yield back my time that you gave me. Thank you.
    Chairman Nadler [presiding]. Thank you. I now yield myself 
5 minutes.
    Let me begin by saying, with respect to the statement of 
Ms. Beck, that she is entitled to her opinion, but I can't 
disagree with her more when it comes to gender identity. 
Frankly, I found your statement that we should not protect 
transgender people, against crimes under VAWA, offensive. 
Gender is biological. It is not a social construct. All the 
scientific evidence tells us that.
    The issue against--of violence against transgender women 
and men, against transpeople, is a significant problem, and it 
is entirely appropriate for this Congress and VAWA to address 
it. We have a history of defining certain groups as outside the 
pale, of defining certain groups as not deserving of civil 
rights or human rights or protection. That used to include all 
gay people. We have made progress on that front. This is the 
latest. This is the latest. And we have to expand our horizons 
to understand that transgender people are human, they are what 
they are, not by choice, any more than anyone else is, and that 
they are entitled to the protections of law against violence.
    Let me ask Ms. Valente: Can you tell us why Congress chose 
to add domestic violence prohibitions to the Federal firearms 
laws in 1994 and 1996? And are those prohibitions sufficient to 
address the most dangerous cases of firearms violence in 
domestic violence cases?
    Ms. Valente. Thank you for asking that question. Domestic-
violence homicides are primarily by firearms. And so in 1994, 
victim advocates brought that knowledge and that--the serious 
anecdotes to Congress, and there was an understanding that the 
most dangerous time was when a woman sought a protection order, 
or any survivor of domestic violence sought a protection order. 
The retaliation after that was often severe.
    When you read newspaper articles about domestic-violence 
homicides, you will also find that too often, it comes right 
after the issuance of a protection order. So that was added in 
1994, but what we found was, we had a gap. If you had a felony 
crime of domestic violence, or any felony crime, you could not 
possess a firearm. If you were subject to a protection order--a 
certain kind of protection order, you could not possess a 
firearm, but a misdemeanor crime of domestic violence, which is 
how most cases were handled as convictions, was not covered. So 
that was added in 1996 through the Lautenberg Amendment.
    So the legislative history of that is understanding that, 
number one, the justice system tends to treat domestic violence 
as a lesser crime, and charges it in a lesser way, and deals 
with it in a lesser way, than other crimes; that if those same 
acts had been committed against a stranger, they would probably 
be felony-level crimes.
    And then added this, protection, knowing that this is the 
way that the justice system responds, making sure that this is 
covered. The gaps we have now, that was--in the day when that 
was done, the understanding was that victims of domestic 
violence were intimate partners who were defined as people who 
were married, formerly married, cohabiting, formerly 
cohabiting, or having a child in common.
    We did not know that the world would reach the place that 
we are today, where there are so many dating partners who do 
not meet any of those definitions. And now, more than half of 
the folks who apply for protection orders may fall into that 
category.
    Chairman Nadler. So we have to expand the definitions?
    Ms. Valente. We are leaving half of our population 
uncovered.
    Chairman Nadler. Okay. I had one more question for you. And 
that is, judges issuing domestic violence protective orders 
often require respondents to transfer their firearms to law 
enforcement. But one study found that only about 10 percent of 
respondents actually complied with that requirement. How can 
VAWA help ensure that adjudicated abusers directed by a court 
to relinquish their firearms actually do so?
    Ms. Valente. This is so near and dear to my heart. We 
have--we have excellent laws. We need to enforce them. We need 
the tools to enforce them, and we need the resources to make 
those tools available. Law enforcement--I speak with law 
enforcement regularly. I just came back from Dallas, where I 
spoke with several law-enforcement agencies. They are all eager 
to do the court-ordered firearms removal, but they do not have 
the staffing to do this. As you might imagine----
    Chairman Nadler. So very briefly, because I have one more 
question.
    Ms. Valente. Yeah.
    Chairman Nadler. What should we do? Increase staffing or 
what?
    Ms. Valente. Provide funding through the stop--make it a 
purpose area in the Stop Violence Against Women Act.
    Chairman Nadler. Okay, thank you.
    Professor Deer, in the 8 seconds that I have left, I will 
ask the question, you can answer it. Why is housing such an 
important part of VAWA if what we are trying to address is a 
response to domestic violence, sexual assault, dating violence, 
and stalking?
    Ms. Deer. I am sorry. Could you repeat the question?
    Chairman Nadler. Why is housing such an important part of 
VAWA if what we are trying to address is a response to domestic 
violence, sexual assault, dating violence, and stalking? Why 
housing?
    Ms. Deer. Well, I would--I would suppose that one of the 
major--well, one of the major reasons that women are homeless 
is because of domestic violence. Women are driven from their 
homes. In many places, there aren't shelters, or the shelters 
are full, and so there has to be a place for them to go--
transitional housing, permanent housing--to help women and 
their children pick up the pieces and find a safe path.
    Chairman Nadler. Okay. Thank you very much.
    My time is expired, and I recognize the gentlelady from 
Arizona, Congresswoman Lesko.
    Mrs. Lesko. Thank you very much, Mr. Chair.
    I have several questions and, first of all, I want to say 
thank you to all of you for coming here and for all of the work 
that you do to--to protect women, and so I appreciate all of 
you. My question--first question is for Julia Beck. And we only 
have 5 minutes, so in a few words, could you describe your main 
goal in testifying here today?
    Ms. Beck. My main goal was to share a radical feminist 
perspective on the sex-based violence that all women and girls 
face and to also shed light on the kinds of male violence that 
lesbians face from the GBT community.
    Mrs. Lesko. Thank you. And can you describe, you did a 
little bit in your opening statement, the experience that you 
have had as a member and advocate for the LGBTQ community as 
you have spoken out against gender identity protection laws? 
Like, what has happened to you?
    Ms. Beck. Right. So I was on the Baltimore city's 
commission for LGBTQ people. It was an LGBTQ commission, and I 
had talked about the threat of violence that male perpetrators 
pose to women in prison. In the U.K., there is a great example 
of a male rapist who called himself a woman, he called himself 
Karen, and without undergoing any medical or social 
interventions, he was transferred from a male prison to a 
female prison where he then sexually assaulted two women. He 
has now been transferred back to a male prison.
    But I brought this example up as something that could 
happen because it is happening in other countries. I--I brought 
it up because it could happen in Baltimore, and I didn't want 
that to happen in my city. And because I talked about that, I 
was accused of violence and I was removed from the commission, 
and a man who calls himself a lesbian is now in my place.
    Mrs. Lesko. Okay. That took a second for me to process that 
in my head. Thank you.
    You know, you had brought up a case about a man identifying 
as a woman going in a woman's prison, right, and then raping 
women?
    Ms. Beck. Yes.
    Mrs. Lesko. Are you familiar at all with--there is a case 
McGee v.--I don't know if I am saying it right--Poverello House 
case currently being litigated in the Ninth Circuit Court. In 
that case, nine women have sued a Fresno homeless shelter 
accusing the nonprofit of allowing a transgender biological man 
claiming to be a woman to sexually harass them. And so I guess, 
you know, to me, it is--do you think it is a concern that there 
are people that might be gaming the laws and pretending, I 
guess, that they are a woman in order to attack women in, let's 
say, a domestic violence shelter designed for women?
    Ms. Beck. Of course. And this is already happening. Like I 
talked about Karen Wood, the male rapist who took advantage of 
these allowances. We know that predatory men will do anything 
to gain access to victims. This is a legal disaster because 
predatory men are already taking advantage of gender-identity 
legislation in order to gain access to women and girls in 
vulnerable states of undress, women and girls who have survived 
sexual violence. And so, yes, this is going to be taking 
advantage of because it already is being taken advantage of by 
predatory men.
    Mrs. Lesko. Thank you for that testimony.
    I do want to share with the committee that I did talk to 
one of the big organizations in Arizona that I am involved with 
that helps domestic violence victims, and they have said there 
has been a number of instances where they have had to deal with 
it where men, I guess, are pretending or--that they are a 
woman. I don't know.
    Mr. Cicilline. Madam chair, I would ask for a point of 
personal privilege. I think the suggestion that transgender 
individuals are pretending they are of a different gender is 
deeply offensive. I would ask----
    Mrs. Lesko. Thank you, sir. And maybe that is not the right 
word, but I talked to, sir, and committee, I actually talked to 
the people with the boots on the ground that have domestic 
violence shelters. And maybe that is not the right word, and I 
didn't intend it to be offensive, but people that--males who 
were identifying as a woman were actually trying to find the 
women in the domestic violence shelter. And so I am not saying 
that happens all of the time, but I know I talked to an Arizona 
organization where it has happened. And so--is my time up? 
Thank you.
    Ms. Bass. Yes. Thank you, Representative Lesko.
    Before I call on our next member, let me just ask unanimous 
consent to add to the record a statement and documents from the 
Jenesse Center of Domestic Violence Intervention and Prevention 
Program Executive Director Karen Earl. Unanimous consent? 
Without objection.
    [The information follows:]
      

                   CHAIR BASS FOR THE OFFICIAL RECORD

=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Bass [presiding]. Representative Jackson Lee.
    Ms. Jackson Lee. Thank you.
    Let me thank the gentlelady from California and all of my 
colleagues for what is a commitment to saving lives and 
recognizing how long we have been suffering and how far we have 
come.
    Judge, you mentioned that we are all human beings, and I 
think that is a very important statement, because I think it 
reflects upon some of the discussion that we have had about 
gender identity. And I associate myself with the remarks of Mr. 
Nadler, that it is impossible to leave out victims, whoever 
they are. But my question to you is specific. I want to focus 
on the human beings, and I am trying to ask a lot of questions, 
so I appreciate just an abbreviated answer.
    But in your position, what has and what will the additional 
funding and outreach language help you, as it relates to 
domestic violence, as it relates to you dealing with law 
enforcement and those who come before you? How will that STOP 
grant, for example, that I am sure you are familiar with, how 
will that help you doing your work?
    Ms. Gonzalez. The STOP grant makes it possible for us to 
coordinate as stakeholders, to educate law enforcement, 
prosecutors, judges, on the dynamics of this insidious social 
norm that is sometimes accepted but needs to be erased. It is 
crucial to us seeing the dynamics of this problem. But may I 
just make one comment on the human being, please?
    In 24 years of being on the bench, I have seen suffering, 
suffering from young men and women, particularly adolescents, 
who are struggling with who they are as human beings. I have 
never seen a young man put himself through the grief that it 
would be to identify as a woman to get to another young woman 
to rape her. That has just never been the experience. What I 
have seen is those individuals being tossed out on the street 
and becoming victims of trafficking because they have no place 
to go.
    Ms. Jackson Lee. And that is what we saw, and we will see 
that in the work that we have done. I thank you for that.
    Let me also acknowledge the National Task Force to end 
Sexual and Domestic Violence for the work that they have done 
over the years.
    Professor Deer, let me quickly get to you, because we were 
passionate about empowering the Indian community. And so would 
you just reinforce the importance of having the ability of 
extending jurisdiction to help Tribes have jurisdiction over 
non-native offenders? Just how important is that?
    Ms. Deer. Well, the vast majority of perpetrators, 
according to the Department of Justice, who commit crimes 
against native people are non-Indians. So if that happens on a 
reservation, unless it is domestic violence, because that was 
addressed in 2013, the Tribe can do absolutely nothing. They 
can't arrest. They can't investigate. They cannot prosecute. So 
you have children, native children who are victimized by their 
non-native fathers who cannot be held accountable criminally at 
the Tribal level. We also can't prosecute non-Indians who 
commit acts of violence against their Tribal police officers. 
So Tribal police officers are responding to a very high 
lethality call, right, and if they are in any way battered or 
injured by a non-Indian, the Tribe again has no control over 
any of it.
    Ms. Jackson Lee. So any extension helps save lives----
    Ms. Deer. Absolutely.
    Ms. Jackson Lee [continuing]. And gives dignity to those 
who have been assaulted.
    Ms. Deer. Yes. If I can just quote the former Secretary of 
Indian Affairs, Kevin K. Washburn. He said a community that 
cannot create its own definition of right and wrong cannot be 
said in any meaningful sense to have achieved true self-
determination.
    Ms. Jackson Lee. Thank you.
    Ms. Deer. This is vital. Thank you.
    Ms. Jackson Lee. Ms. Valente, may I raise a question with 
you? And as I do that, I want to offer my thoughts to those who 
I knew in my district, the victims of domestic violence, like 
Brittany Smith who was 23 years old and was gunned down last 
year in Houston by her boyfriend and San Diego-based Marine, 
nor can we forget Charlene Caldwell, a mother and grandmother 
beaten to death last year by a baseball bat at the hands of her 
boyfriend in Houston.
    Dealing with this over the years, let me again focus on the 
importance of a storage scheme as relates to guns. And would 
you reiterate again the weapon of choice as relates to domestic 
violence, who then impacts not only the two adults but children 
as well. Since we have had incidences where the domestic abuser 
has come and killed, in many instances, the mother and the 
children, and the importance of legislation that expands that 
and expands grant funding like STOP and other expanded outreach 
dollars to reach individuals, if you would.
    Ms. Valente. Thank you. We have many good models to deal 
with this and to improve this in communities, and they often 
involve coordination between the Federal government and local 
governments, because each has a strength to bring to the work 
that is done. This version of VAWA, we hope, will include that 
language that both creates, just like Project Safe 
Neighborhoods, that linkage between the Federal and the local 
so that all those strengths are brought together, as well as 
the funding that can come through the STOP program. That will 
give communities the ability to build the protocols and the 
resources and the staffing.
    Ms. Jackson Lee. I thank the gentlelady. Thank you very 
much.
    Ms. Bass. Thank you.
    Representative Cline.
    Mr. Cline. Thank you, Madam chair.
    I want to thank our witnesses for being here today. I want 
to associate myself with the comments of the gentlelady from 
Texas. This is about the victims, and we should be focused on 
them and on their well-being.
    I served as a prosecutor for nearly a decade focusing on 
domestic violence cases, working in juvenile and domestic 
relations courts, and, Judge, you have my admiration. That is, 
in my mind, the most challenging judicial position across the 
entire bench, so thank you for your service.
    I also, through my work on the board of a local domestic 
violence shelter, Project Horizon in Virginia, got to see up 
close a lot of the challenges that are being faced in our 
shelters. And Mrs. Lesko asked some very pointed questions that 
go right to the heart of the challenges facing a lot of our 
shelters right now. But I want to ask the judge a couple of 
questions.
    Having prosecuted in JDR courts and you being on the bench 
in JDR courts, certain tools that are at your disposal that can 
be used to address situations involving domestic violence are 
critical and to ensuring that justice is ultimately served. The 
use of bench warrants, that is a critical tool for you, 
correct?
    Ms. Gonzalez. Correct.
    Mr. Cline. Okay. So we would want to ensure that that 
remains a tool for you and for prosecutors through any VAWA-
funded programs to continue to be a tool for you to use, 
correct?
    Ms. Gonzalez. I am confused as to why it wouldn't be a 
tool, because whether I have the authority to issue a warrant 
is inherent in the court.
    Mr. Cline. Correct. But if--but prosecutors should also be 
able to maintain that option to seek a bench warrant if they 
are funded by VAWA programs, correct?
    Ms. Gonzalez. I am sorry. Congressman, I am not really sure 
what provisions you are talking about. I have never seen a 
situation in which a prosecutor would not be authorized to ask 
me for a search warrant----
    Mr. Cline. Okay.
    Ms. Gonzalez [continuing]. Or an arrest warrant, but it 
still has to go through me where I find the probable cause to 
issue that warrant.
    Mr. Cline. Sure. I will ask you also about housing 
programs.
    Ms. Gonzalez. Okay.
    Mr. Cline. A lot of times, you have situations where people 
are in public housing programs or victims who need access to 
housing. Some of the proposals would give victims of domestic 
violence priority in line for transfer out of or to a different 
form of public housing. Do you think that that is an 
appropriate provision to include, to put them ahead of other 
victims that you might encounter?
    Ms. Gonzalez. The difference here is that the choice for 
the victim of domestic violence or sexual--in this case 
domestic violence, is to go home and get murdered or to find 
other housing, and sometimes that decision is a critical one. 
And so for this particular dynamic where you have a family, a 
protector of children needing safe space, yeah, I think that is 
crucial. I think--as I indicated in my testimony, the issue of 
trying to find housing is important. I tell women all the time. 
I am sorry, there is a no contact. You can't see him from last 
night. And she says to me, Judge, how am I going to pay the 
rent? How am I going to go to work? I know you know what 
happened last night, but I need to work, and I need to go home. 
I don't have any place else to go, and I could lose my children 
if I am homeless.
    So housing is a critical piece that has to be put in place 
to address those human needs. Otherwise, she is going to go 
back and not do what I tell her to do.
    Mr. Cline. In Wisconsin, do you have models of alternative 
justice or restorative justice that are in place?
    Ms. Gonzalez. Absolutely. Absolutely.
    Mr. Cline. Okay.
    Ms. Gonzalez. I work with the Criminal Justice Management 
Council in my own community, and my State is very trauma-
informed and trauma-advised, and we look for alternatives in 
every way we can.
    Mr. Cline. Do you require voluntary participation from both 
offender and victim before you refer a case to a situation like 
that, some type of mediation program?
    Ms. Gonzalez. It is very, very important that the victim 
have a voice in those decisions, yes, sir.
    Mr. Cline. Okay. A voice, but not ultimately a veto?
    Ms. Gonzalez. They can't have necessarily a veto in those 
situations because every case is different, and so the facts of 
that particular--it is like, you know, we want to take a 
photograph of these people's lives and say, okay, this is what 
happened, but their lives is a movie, and so we prefer to take 
a look at the full movie to decide what it is that is the best 
intervention for that family.
    Mr. Cline. Thank you.
    Ms. Bass. Representative Jeffries.
    Mr. Jeffries. Thank you, Madam chair.
    Ms. Valente, in your testimony, I believe you said that 
Native American and Alaskan Native women experience gender-
based violence at a staggeringly high rate.
    Ms. Valente. Yes.
    Mr. Jeffries. Is that right?
    Ms. Valente. It is actually Professor Deer who spoke to 
that.
    Mr. Jeffries. Oh, okay. I am sorry.
    Professor Deer.
    Ms. Deer. Yes.
    Mr. Jeffries. Okay. And you referenced a study that found 
over half of native women experience sexual violence in their 
lifetime. Is that right?
    Ms. Deer. That is correct.
    Mr. Jeffries. And I think you also mentioned that almost 15 
percent experience sexual violence every year. Is that right? 
Fifteen percent of native women?
    Ms. Deer. I am not sure if that is in my--in my testimony, 
but we do know that, according to the National Institute of 
Justice, 56 percent of native women will experience some form 
of sexual violence. That is more than one in two.
    Mr. Jeffries. And I think it is correct that approximately 
95 percent of native women experiencing sexual violence or 
intimate partner violence will experience that violence by at 
least one non-native perpetrator?
    Ms. Deer. That is also consistent with the National 
Institute of Justice research.
    Mr. Jeffries. And when we extended the Violence Against 
Women Act in 2013, we created for the first time a framework 
for Tribal courts to be able to prosecute non-native 
perpetrators. Is that right?
    Ms. Deer. Partly correct, sir. The Tribal governments have 
been prosecuting non-Indians since we came into contact with 
non-Indians. It was in 1978 that the Supreme Court said we 
could no longer do so, and VAWA 2013 restored that jurisdiction 
but in that narrow category of domestic dating and protection 
orders, not for child sexual abuse or sexual assault in 
general.
    Mr. Jeffries. And in terms of the progress that was made in 
2013, why was that important?
    Ms. Deer. Well, because Tribal governments had--basically, 
had no options when they were faced with non-Indian batterers, 
non-Indian rapists, and for the first time in VAWA 2013, 
Congress took the invitation from the Supreme Court to correct 
the injustice that native women had been experiencing since 
1978.
    Mr. Jeffries. And can you elaborate on some of the sort of 
jurisdictional areas where we can expand in order to build upon 
the work that was done in 2013?
    Ms. Deer. Certainly. We are interested in--in expanding 
that jurisdiction, restoring that jurisdiction to perpetrators 
of child abuse, to perpetrators of sexual violence which is 
outside the context of domestic violence, and to protect our 
Tribal law enforcement officers as well. And I can just give 
you an example again from a Tribe that was not able to take 
action in the case of sexual violence. I need to find that real 
quick. It was a Tribe in Arizona, and there was a groping. Oh, 
here it is. Sorry.
    It was a Tribe in Arizona. A female Tribal member who was 
employed by the casino was fixing slot machines one evening 
when a group of drunk non-Indian patrons began harassing her. 
And as the men were being removed by casino security, one of 
them grabbed the female employee by the genitals and squeezed. 
And despite having the incident recorded on surveillance video, 
the Tribe was unable to charge the offender, who was a stranger 
to the victim, because he was non-Indian.
    Mr. Jeffries. That is a very troubling example of why we 
need to expand jurisdiction here. What is the counterargument 
that has been made as to why jurisdiction should be limited?
    Ms. Deer. Well, I--I think, in part, the--the concern about 
Tribal jurisdiction stems from, you know, just ignorance about 
the nature of Tribal courts, not understanding that Tribal 
courts operate much like State and Federal courts do. I myself 
am the chief justice of an appellate court for a Tribe in 
Minnesota. We look at the same due process rights, in fact, 
sometimes giving more scrutiny because we are looking not just 
at the Tribal constitution, but also Federal civil rights 
statutes through the Indian Civil Rights Act, as well as what 
Violence Against Women Act requires in terms of habeas 
petitions. So we are actually looking at kind of three layers 
of due process within that Tribal court system.
    Mr. Jeffries. Am I correct that according to a 2018 report 
by the National Congress of American Indians that looked at the 
VAWA special jurisdictional court, it noted that not a single 
petition for habeas corpus had been filed in a 5-year period, 
suggesting that there had not been any overreach that had taken 
place?
    Ms. Deer. That is correct. From 2013 to 2018, the 
implementing Tribes reported making 143 arrests of 128 non-
Indian abusers, leading to 74 convictions, 5 acquittals. And 
right now as of 2018, there were 24 cases pending. There has 
not been a single petition for habeas review brought in Federal 
court, and although some argue that Tribal courts would be 
incapable, right, of fairly implementing the jurisdiction in 
the absence of even a single habeas petition in the first 5 
years, reveals that those arguments were unfounded and likely 
based on prejudice alone. And I would note that non-Indians 
have been acquitted by Tribal juries.
    Mr. Jeffries. Thank you. I yield back.
    Mrs. McBath [presiding]. The chair recognizes the gentleman 
from Florida, Mr. Steube.
    Mr. Steube. Thank you, Madam chair.
    First, I would like to give some of my time to Ms. Beck. 
You were going to respond to Mr. Cicilline when he interrupted 
Mrs. Lesko. You were starting to respond, but you got cut off. 
I just want to yield time to--to give to you to--to his 
response.
    Ms. Beck. Thank you, Mr. Steube. Could I--could you remind 
me what the context----
    Mr. Steube. Yeah. Mrs. Lesko had a series of questions that 
she was asking----
    Ms. Beck. Right.
    Mr. Steube [continuing]. And Mr. Cicilline had said 
something about that he--she used language regarding 
transgender----
    Ms. Beck. Right.
    Mr. Steube [continuing]. That was offensive. Could you----
    Ms. Beck. Sure. Thank you. Acknowledging biological sex is 
not inhumane. It is actually inhumane to force women to share 
intimate spaces with male people who call themselves women. So 
I don't see any problem with calling someone male or female, 
man or woman, because these are words that refer to biological 
reality. Gender itself, you know, femininity or masculinity, 
that is not important. Like I said, we need to acknowledge 
biological sex. Doing so is not inhumane.
    People whose--people who self-identify as transgender are 
human. They are people, right? But that doesn't mean that I 
have to kowtow to their identity. I can still call someone who 
identifies as a transgender woman a man because he is a man. He 
is male. And most men who call themselves transgender women 
retain their male genitals. They pose a threat to women because 
male genitals can be weaponized. Women are all vulnerable to 
forced impregnation. That is just the facts of our biology. So 
it is not inhumane to call someone according to their sex.
    Mr. Steube. Well, so where are all the--where is all of 
this leading, in your view? If we don't ensure that the VAWA 
funds are reserved specifically for women, what are you worried 
will happen next? Where will we be in 5 to 10 or 20 years from 
now?
    Ms. Beck. If we cannot acknowledge biological sex or the 
differences of biological sex between the two sex classes, then 
there will be no protections for women on the basis of our 
biological sex. Rates of violence against women I would expect 
to increase. Rates of forced impregnation, forced motherhood, 
which is a form of slavery, that will also increase if we 
cannot name the problem of male violence against women. And 
gender obfuscates this reality of biological sex.
    Mr. Steube. And what type of effect this shift may have on 
women's sports and Title IX, do you have any thoughts on that?
    Ms. Beck. Absolutely, I have a lot of thoughts on that.
    Mr. Steube. Well, you have got 2 minutes and 24 seconds to 
give it to us.
    Ms. Beck. Thank you. Yeah, women are losing titles and 
scholarships, collegiate opportunities because men who claim to 
be women, without any medical intervention whatsoever, are 
competing against female athletes. I know in Connecticut there 
was a State track meet, and two biological male runners, two--
two boys--I don't--I wouldn't say they are men, but they are 
boys. They claimed to be girls. They ran in the track meet, and 
they got first and second place.
    We know that men are stronger, on average, than women. We 
know that men are bigger, on average, than women, and this 
gives men an advantage over women if we are to compete together 
in the same track meet. So two biological males actually stole 
scholastic opportunities from the--what would it be--the--the 
further and further down ranked female runners. These girls are 
now lost--these girls have now lost the opportunity to go to 
college, because athletics is one main avenue of gaining--
gaining an education in this community--in this country. So, 
yes, Title IX is basically moot now because men can be women.
    Mr. Steube. So just to follow up on that, so if a 
biological man identified as a woman to run in this track meet, 
and then they can now qualify for those funds?
    Ms. Beck. Exactly. And that is a problem.
    Mr. Steube. I will--do you have any more questions, Mrs. 
Lesko, because I will yield to you if you do.
    Mrs. Lesko. No.
    Mr. Steube. You are good? All right. I will yield to the 
chair. Thank you much for your testimony.
    Ms. Beck. Thank you.
    Mrs. McBath. Thank you to the gentleman from Florida.
    I would like--the chair would like to recognize herself for 
a moment.
    Thank you to each and every one of you this afternoon or 
this morning as you share your experiences with us and also 
your testimonies. And thank you for bearing with us as we work 
to reauthorize this very, very important legislation.
    I would like to really start with some very deeply 
troubling facts. According to an analysis of the FBI 
Supplementary Homicide Report by the Violence Policy Center, an 
average of 1.5 women every single day were murdered in 2015 as 
a result of being shot with a gun by a male intimate relation. 
This constituted 35 percent of women murdered with a known 
cause of death and a known perpetrator.
    Another study found that the presence of a gun in a 
domestic violence situation makes it five times more likely 
that a woman will be killed. And I have to say that I have 
worked with many women who were victims of this type of gun 
violence and gun violence prevention advocacy. We also know 
that abusers who use guns to threaten their victims, even--they 
use them even if they don't intend to pull the trigger. And 
while we often think of domestic violence as something that 
happens behind closed doors, many mass shooters have a history 
of domestic violence or are motivated by a desire to harm a 
partner. Taken together, guns in the hands of abusers is a 
serious threat to--to partners and to the community.
    Ms. Valente, I would like to ask you this question. You 
know, more people are killed by abusive dating partners 
annually than by abusive spouses. Federal law prohibits 
respondents to final protective orders and domestic violence 
misdemeanants who are married or who were married to their 
victims from possessing firearms, yet it does not include the 
same protections for victims of dating abuse. Why is that, and 
what can we do to fix this?
    Ms. Valente. I would like to thank you for asking that 
question. This is important because it is an increasing 
population that we must deal with and we must protect. I 
believe that this occurred because the original language around 
firearms prohibitors and domestic violence occurred in 1994 and 
1996 when we really weren't aware of this demographic and that 
this demographic would grow.
    And I think that just like in many other parts of VAWA, as 
time goes by, we learn lessons. We learn what we didn't put in 
there properly in the first place. We also learn that society 
changes, and we have to keep the law up to date with where 
society is going, and that is an increase in the number of 
dating partners who are exposed to this kind of firearms 
violence.
    Mrs. McBath. Thank you. Let me ask you another question. We 
know that 50 percent of people who experience stalking 
experiences, they experience some form of violence, and 20 
percent of people who experience stalking experience threats 
with a weapon. What can we do to better protect victims of 
stalking from gun violence?
    Ms. Valente. That is another gap in our Federal firearms 
prohibitors. Stalking is only addressed in a protection order 
context and only in the context of domestic violence, yet 
stalking can occur in other situations. It may not be an 
intimate partner, and it may be something that is charged as a 
misdemeanor.
    So right now, we have the same gap in the law that we had 
back when the Lautenberg Amendment passed, that you have 
coverage under the protection order, you have coverage through 
the felony prohibitor, and the misdemeanor crime charges and 
convictions that we--we know the bulk of them are being treated 
as are not covered at all. We need to close that gap. Stalking 
is the biggest red flag for lethality in domestic violence 
cases. Research shows that.
    Mrs. McBath. Thank you so much.
    Now the chair recognizes the gentleman from--recognizes the 
gentleman from Texas.
    Mr. Gohmert. Thank you.
    Julia Beck, I have said previously, based on my experience 
with African American very dear friends and employees, that 
there is probably nobody in America more beat up, figuratively 
speaking, than an African American conservative. But seeing and 
hearing you, I see that that is now being rivaled. I am amazed 
at people that would agree with you on much--on most things, I 
would have thought, have just taken you on as an enemy, whereas 
as a Christian, we know that everybody is a gift, and whether 
we agree or disagree, we are all part of the same species.
    Just at a very basic level, why would you say it is 
important--and I know you have touched on this, but we need to 
get to basics. In a nutshell, why is it important to have 
women-only facilities?
    Ms. Beck. Thank you for your question. I would like to say 
that I don't think it is fair to compare the oppressions that 
Black people face with the oppressions that--that I face, 
because it is--it is not the same.
    Mr. Gohmert. No, I understand.
    Ms. Beck. Thank you for acknowledging, but, you know, we 
all face some difficulties in life.
    Mr. Gohmert. Well, some more than others. There is no 
question.
    Ms. Beck. I think it is important to get back to the basics 
because women-only space is crucial for women to survive in 
this world. When I first experienced female space, I--it is 
hard to put into words what I felt. I could stand tall. I could 
walk at night without my shirt on and without fear of being 
raped or molested or, you know, taken--groped. All of the 
things that I have to protect myself from walking in Baltimore, 
I didn't even have to worry about. It wasn't even on my mind. 
And as a survivor of homelessness and of rape, I value female 
space because it allows me to be who I am without fear of 
molestation or--or violence. So female space is crucial. It is 
paramount to not only survival, but to healing from violence 
and abuse.
    If one man, if one male person is in a space designated for 
female people, all of those women will start to censor 
themselves. Women change what we do. We change our behavior. We 
change what we think and what we say because we fear male 
violence. And I don't know if other women in this room could 
relate to that, but it is true. I think if the women in this 
room experience female space, you will realize, wow, this is 
really valuable because we can actually be our full selves.
    Mr. Gohmert. Well, as a former felony judge in Texas, I saw 
time and again women who have been victims of sexual assault. 
So often you hear testimony from mental health folks. They were 
so often traumatized to be in a closed environment with--with a 
man, whether the man thought he was a woman or a man. It was--
it sometimes brought back the whole trauma again and 
retraumatized the women. And I have been amazed that with 
people on this committee, particularly who are normally so very 
sensitive to that kind of issue, how it doesn't seem to be 
there on recognizing the need for some women-only spaces, and 
so I appreciate your bringing it to our attention.
    I wanted to ask you about one other thing right quick. In 
your opinion, should Federal grant purposes be modified to 
include the efforts to include combating female genital 
mutilation? What do you think?
    Ms. Beck. Of course. Yes. There is no--there is no doubt 
about it. It shouldn't be a question. Yes.
    Mr. Gohmert. It sure seems like that is a form of abuse of 
women, and I am surprised that we have not reached out in that 
direction to help with grants to combat that kind of 
mutilation. That sure seems like an early form of war on women, 
a war on girls at a very early age.
    So I appreciate your candor here. I know there are probably 
a lot of things we disagree on, but I can't convey adequately 
how much I appreciate you as a human being and your courage and 
your clarity. Thank you very much.
    Ms. Beck. Thank you.
    Mrs. McBath. The chair would like to recognize the 
gentleman from Rhode Island.
    Mr. Cicilline. Thank you, Madam chair, and thank you for 
convening this hearing.
    For more than 20 years, the Violence Against Women Act has 
provided really critical protections for women who have 
experienced horrific violence, sexual assault, and stalking. 
And it is very important, when you look at the services that 
are provided through VAWA, shelters and transitional housing, 
counseling, support services, this bill has the ability to 
really improve the lives of so many women and protect them 
against violence.
    And given the importance of this, it is really unacceptable 
that VAWA was allowed to expire on December 21 when it became a 
casualty of the longest government shutdown in our Nation's 
history. The victims and survivors of domestic violence can 
wait no longer, and I hope we will move quickly to reauthorize 
this.
    Before I begin my questioning, I want to set the record 
straight with some facts. Whether or not the minority witness 
believes that transgender people exist, it is a fact they do. 
And despite her effort to decide the sexual orientation and 
gender identity of the entire population of our country, that 
is not her right. In fact, transgender, gender nonconforming, 
and gender-fluid people are disproportionately survivors of 
violence. They deserve to access services consistent with their 
needs. And I would like to offer a few examples of the 
challenges that transgender Americans face.
    According to a U.S. Transgender Survey which surveyed 
nearly 28,000 transgender adults, almost half of transgender 
individuals had been sexually assaulted in their lifetime. 
According to the latest FBI statistics, more than 17 percent of 
all hate crimes reported in 2017 were based on the victim's 
sexual orientation or gender identity. Of 1,300 hate crime 
offenses based on sexual orientation, 118 of those incidents 
were exclusively antitransgender. And finally, the Human Rights 
Campaign found that at least 128 transgender individuals have 
been killed since 2013. So those are the facts.
    At the end of my questioning, I would like to ask unanimous 
consent to have a number of things put into the record.
    I would like to begin my questioning with you, Judge 
Gonzalez. You referenced this in response to Mr. Nadler's 
questions, but I would like to kind of probe a little more 
deeply. You made reference in your testimony to Corrine and her 
2-year-old child who had to jump through a number of hoops to 
find adequate housing and child care. And I wonder if you could 
speak about the impact of the instability and lack of housing 
on survivors of violence and the kinds of examples you see in 
your courtroom, and what would the effect be if someone in 
Corrine's situation would not be able to access VAWA grants 
that are available and potentially running out of funding 
because this law has expired.
    Ms. Gonzalez. We all know that where we live is important 
to us, but women who are fighting an issue of domestic 
violence, sometimes that is what is lost primarily. Most of 
these--when we talk about domestic violence, it is not just the 
violence; it is about the economic control and coercive control 
that is used. So often they don't have the resources that the--
that the abuser has. If they don't have access to these 
vouchers--and, Congressman, even when they have access to the 
vouchers, it is not enough. Because if we don't have an 
opportunity for them to actually find a place that will take 
that voucher, they are not going anywhere.
    I had a question yesterday. Somebody said, why would 
somebody come to--to a prosecutor and say please don't 
prosecute my abuser? I will tell you why. Because if they get 
prosecuted, then they may very well lose the housing that keeps 
them together. These are issues that are very, very integral to 
making people safe, and it has to be looked at from the big 
picture and not just the small picture.
    Mr. Cicilline. Thank you so much.
    Ms. Valente, you made reference in your testimony, and the 
chair, chair McBath, questioned you about the presence of 
firearms in this very complicated set of situations. You, in 
fact, made reference in your testimony, and I quote you, to 
allow local law enforcement to better protect their 
communities, the FBI should notify them when a domestic abuser 
attempts to purchase a firearm and fails the background check. 
Great minds think alike. I have a piece of legislation to do 
exactly that, and that will alert State and local law 
enforcement when a prohibited purchaser then tries to buy one.
    Can you explain why you think this kind of alert is helpful 
in terms of protecting folks against violence, and what is the 
leading cause of homicide for victims of domestic and dating 
violence? And could you tell us a little bit about when 
Congress added domestic violence prohibitions to the Federal 
firearm laws in 1994 and 1996, what was the kind of context of 
that? I tried to get that all in because you get to answer my 
question.
    Ms. Valente. I will do my best to do all of that. First of 
all, the notification is tremendously important, because we do 
know that when a survivor reaches out, especially for a 
protection order, that is often the first time that they are 
reaching out to the system for help in a way that will really 
make the abuser aware that they are reaching out for help, and 
that can cause huge escalation in the violence. And so what we 
see, not uncommonly, is that an abuser will go out and attempt 
to purchase a firearm after the issuance of a protection order 
or after that first intervention.
    And so letting law enforcement--local law enforcement know 
that that escalation is starting to occur is very important. I 
think if you talk to any local law enforcement officer, they 
will tell you, yeah, we know that there are certain families 
that are struggling with certain issues, and they try to keep 
an eye out for what is going on, trying to keep the family 
safe. And any piece of information that helps to keep them safe 
and law enforcement safe, because law enforcement, you know, 
deaths are very high in relation to answering domestic violence 
calls.
    Mr. Cicilline. Thank you.
    Madam chairman, a unanimous consent request? I ask 
unanimous consent that the report of the 2015 U.S. Transgender 
Survey be made a part of the record. The unanimous consent 
request that a report of the National Consensus Statement of 
Antisexual Assault and Domestic Violence Organizations in Full 
Support of Equal Access for the Transgender Community be part 
of the record; an article entitled More Than 250 Sexual Assault 
Domestic Violence Organizations Condemn Anti-Trans Legislation 
be part of the record; an article from the University of 
California UCLA School of Law, The Williams Institute, The 
Public Regulation of Gender and its Impact on Transgender 
People's Lives; the Uniform Crime Statistics Hate Crime 
Statistics Report from the Federal Bureau of Investigation for 
2017; and finally, an article from Springer entitled Gender 
Identity Nondiscrimination Laws in Public Accommodations all be 
made a permanent part of the record.
    Mrs. McBath. Without objection.
    [The information follows:]
      

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mrs. McBath. The chair now recognizes the gentleman from 
Louisiana.
    Mr. Richmond. Thank you, Madam Chairwoman.
    Judge, and I know that in your testimony you mentioned a 
case, and I want to mention a case, and I would like to know 
how it would be handled today. It was actually my first case 
out of law school, which was a child in need of care case where 
they actually terminated the parental rights for a young lady 
to her four children.
    In the facts of the case, the boyfriend, the live-in 
boyfriend, was an abuser. He abused her and he severely injured 
one of the children with abusive whipping. The State then filed 
to terminate her parental rights. And ultimately, the State 
won, I lost, and they terminated her parental rights. Now, she 
didn't go to jail. She didn't get convicted of a crime, but she 
lost her four children. And the only partially good thing was 
that the family that was going to take them would allow her to 
try to maintain a relationship with them.
    But when we start talking about terminating a mother's 
right to raise her children, how would that case happen today? 
How would that case be resolved today?
    Ms. Gonzalez. Congressman, thank you for the question. It 
really comes down to what was said before was, hey, if you 
can't keep your kids safe, then you don't get to keep your 
kids. And so they--there was a mentality then, right, that the 
violence in the home was her fault, that it was her 
responsibility to protect her children. Without understanding 
the entire movie, as I have indicated before, we were looking 
at a photograph of this family instead of the full movie of 
that family.
    That changes today because I have trained social workers 
that understand the dynamics of domestic violence, I have 
prosecutors that understand the dynamics, and I have law 
enforcement who make that initial call to understand and look 
behind what is really happening here.
    [Audience disruption.]
    Mr. Lieu [presiding]. Could we have some order, please?
    Thank you. Thank you. We got it. Appreciate it. We need to 
continue the hearing. So if you could please escort her out of 
the room kindly, that would be great. Thank you.
    Ms. Gonzalez. Congressman, I have that passion in my 
courtroom all the time.
    Mr. Richmond. And I will just tell you that I felt the 
exact same way that she did when I lost that case and those 
rights were terminated. The case subsequently went up to the 
Supreme Court and so on.
    What about CASA and their positions and their evolution, or 
has there been an evolution with CASA to understand the 
dynamics of----
    Ms. Gonzalez. Absolutely. What--what happens with--with 
VAWA is it just turned things into a different perspective. 
It--once you have a judge that is trained using those VAWA 
funds to understand the importance of this dynamic, they come 
back. They bring everybody to the table. They bring CASA. They 
bring the prosecutor. They bring their community resources to 
say this cannot be the way we do this, because all we are doing 
is traumatizing children.
    Those children whose parental rights were terminated, they 
are going to try and go back to that biological family anyway. 
They are going to find their home, and we--we have not done 
what we needed to do for them because we, the system, made 
ourselves feel better. It is better if that mother doesn't have 
these kids. We don't have to worry about this family anymore. 
That is not the solution. The solution is how do we make that 
mom and those kids have a healthy, happy relationship together?
    And by the way, that dad who was involved in that violence, 
there is--there is and there needs to be a pact for parents and 
fathers to--to parent after violence. And that has been a 
change that has come across over the last 24 years, and that 
has come across because of VAWA.
    Mr. Richmond. Yeah. And I--but let's make the point that, 
yeah, I do want the biological father back involved, but there 
should be some real steps before.
    Let me ask another question. Anybody can answer this. Also 
while I was in law school, I intervened in a situation and 
called a domestic violence hotline that no one answered. So my 
question to anybody who can answer it, what is your experience 
with these hotlines? Are they underfunded?
    Because what it does is put out there a false sense of 
hope, and then when you call it and no one answers, then all of 
a sudden, the person is in a worse place than where we began. 
And by the way, the husband was taken away, and the police did 
not arrest him because she didn't want to press charges, on a 
Friday, because she didn't want him to stay on the weekend. He 
came back Sunday night and killed her Monday morning.
    So that is why these hotlines are important and emergency 
shelter and those things. So just tell me about the hotline. I 
think my time has expired, but if you could tell me about the 
hotline, it would be important.
    Ms. Valente. You raise an important point. Everyone who 
reaches out to a hotline should be able to receive services and 
a response, and we need the funding to make sure that that will 
happen.
    You also answered your question in what you stated. It is 
very difficult to raise private funding for services like this. 
It is an overwhelming amount of funding. We really do believe 
that the government has a responsibility to support, you know, 
national hotlines, State-level hotlines, local ones. People 
make different choices about where they are going to reach out, 
and we want to have all of those resources available. They are 
all chronically underfunded.
    Mr. Richmond. Mr. Chairman, if I just could have 15 
seconds.
    Mr. Lieu. Go ahead.
    Mr. Richmond. I would like to add that there is a lot of 
hope for me in this conversation. I had an elderly Black couple 
in New Orleans that took their life savings and started their 
own emergency shelter for women who are--who need emergency 
shelter because of domestic violence, an elderly couple, 
because they wanted to make sure that people are addressing 
this issue. And I support them every way and with every dollar 
that I can, but it shows that we are turning a corner, but the 
government has to put our money where our mouth is also.
    So thank you all. And thank you, Mr. Chairman, for that 
extra 15 seconds.
    Mr. Lieu. Thank you.
    The Chair recognizes himself for 5 minutes.
    Let me start by saying I have an important announcement. It 
is day 20 of the declaration of national emergency. The 
President of the United States has told us we are in a national 
emergency. Do you feel it? Can you feel it? No. But what is a 
real emergency is the epidemic of domestic violence across 
America and all its attendant consequences, including death, 
injury, homelessness.
    I would like to spend the next few moments talking about 
the connection between domestic violence and homelessness. In 
Los Angeles County, in my district in Los Angeles County, one 
of the biggest issues I hear about is homelessness, and for 
several years, a number of people experiencing homelessness has 
grown, and part of this is connected to domestic violence. In 
2018, nearly 53,000 people were experiencing homelessness in 
L.A. County, 16,000 of whom were women. And then according to 
the data looking at the L.A. County continuum of care area, 
nearly half of women who experienced homelessness reported that 
they also experienced domestic violence.
    According to the National Network to End Domestic Violence, 
in 2015, 7,728 adults and children fleeing domestic violence 
sought refuge in an emergency shelter or transitional housing 
program, but their needs went unmet.
    So my question is to Ms. Valente. In your written 
testimony, you noted that domestic violence is a leading cause 
of family homelessness. You also mentioned that VAWA programs 
that provide housing support for domestic violence survivors 
exist but that gaps remain. Could you please elaborate a little 
bit on what steps you can take to ensure domestic violence 
survivors do not experience homelessness?
    Ms. Valente. Yes. And I also want to acknowledge at this 
point that the National Network to End Domestic Violence does 
have a representative here, and at the end of the hearing, I 
know that their expertise would be very valuable to you, and I 
would be happy to make sure that you speak with them. They have 
a lot of information on housing.
    Mr. Lieu. Thank you.
    Ms. Valente. Housing is one of the number one concerns. I 
think Judge Gonzalez made reference to that earlier. Without 
secure housing, many survivors are going to return. Many 
survivors go into shelter, which have limits of 30 to 90 days 
of staying so that others may use it, and many return home to 
the place where the violence occurred.
    What we need are more housing vouchers. We need more of an 
ability for survivors to be able to have financial supports so 
that they--one of the biggest problems that people tell us is 
they can't get the first month's rent, last month's rent, 
security deposit put together. Funding that allows that. Many 
survivors have jobs. They just have to be able to get into 
housing. So some of the things that we are talking about are 
addressing those needs.
    We also know that there are many survivors who are evicted 
from housing, public housing and private housing, because of 
the crimes that the abuser commits. And so they as victims must 
suffer the same punishment, which means that they are thrown 
out of the housing as well. We need to keep that from 
happening. And those are the sorts of protections that we are 
talking about.
    Mr. Lieu. Thank you. I want to say that when I was on the 
California State Legislature, I passed a law that allowed 
victims of domestic violence to break their leases with their 
landlords so that they could stay and not have to move out. 
Now, I also--I am sorry--so they could move out and not have to 
stay.
    So my next question is to Judge Gonzalez. In your written 
testimony, you discussed the impact of evictions on the ability 
of domestic violence survivors to find housing using vouchers. 
Are there protections for domestic violence survivors to 
prevent them from being evicted if their abuser is involved in 
criminal activities?
    Ms. Gonzalez. No. No. We don't have any protections for 
them to not be evicted. It is basically a private contract 
between the landlord and the--and the tenant. In the--my 
example that I used in my written testimony, there is a dual 
lease, and the victim of domestic violence leaves to go get a 
protective order. So she goes temporarily into shelter, and 
while she is gone, there is an eviction because of the criminal 
behavior in the household, and the abuser goes and says, sure, 
go ahead, evict me. But by the time we get to that writ of 
eviction, it is the victim who is being served with that writ 
of eviction by the sheriff, and at this point, it is very 
difficult for her to go back and try and get that eviction 
reversed.
    Mr. Lieu. Thank you.
    And, Ms. Valente, do you have any additional comments on 
that?
    Great. Thank you.
    Okay. So I am going to yield back, and the next person we 
have is Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair, and thank you for all the 
panelists and the people who attended this hearing.
    This is so important that we reauthorize the Violence 
Against Women Act, and I support the amendments and the changes 
that have been made in this legislation because violence 
against people, in addition to women, should also be against 
the law, and there should be protections, and there should be 
sanctuaries. And we are, as President Obama said many times, 
becoming a more perfect union. This is part of the way we are 
is by recognizing other instances of abuse and going forward. 
And I hope my Republican colleagues will come into the 21st 
century with us and support this new law and show that they are 
serious about protecting people.
    Otherwise, I would like to ask Ms. Valente a question. Our 
Nation has had a serious problem with processing rape kits in a 
timely manner. A few years ago, Memphis was, unfortunately, 
ground zero for the rape kit backlog, and when the rape kits go 
untested, the victims are without justice and perpetrators are 
on the streets to commit additional acts because they haven't 
been--seen justice meted upon them and have them taken out of 
society where they can now commit more crimes.
    With the help of Federal funding, and I have to say that we 
were successful in getting that Federal funding on several 
occasions with Republican help during the appropriations 
process, which oftentimes are bipartisan, and I had the 
privilege of having, I think, first Mr. Wolf and then later 
another Republican help me with that funding. We made progress 
adding funds to decrease that backlog.
    As of January 2019, there were 40--give or take, 4,500 DNA 
profiles from 4,600 sexual assault kits that had been entered 
into the FBI's combined DNA analysis system known as CODIS. 
These profiles have resulted in CODIS hits to almost 1,600 
known convicted offenders and 371 known arrests, so it is shown 
the ability to find the perpetrators of these crimes, bring 
them to justice, and then protect, because these are oftentimes 
repeat offenses and they are serial offenders.
    In Memphis, we have had 3,526 investigations have been 
initiated; 3,140 investigations have been closed; 403 requests 
for indictments have been issued; and 87 cases have been 
prosecuted. In 2013, version--the 2013 version of Violence 
Against Women, the VAWA Act, required that a minimum of 75 
percent of Debbie Smith grants be used to carry out DNA 
analysis of samples from crime scenes for inclusion in CODIS 
and increase the capacity of State and local government 
laboratories to carry out DNA analysis. DNA analysis is vitally 
important to Memphis and to other cities throughout this 
country.
    But I was hoping that you, Ms. Valente, could shed some 
light on why it is so important for our national efforts to 
address sexual assault and how these rape kit testing 
procedures are important in fighting sexual assaults.
    Ms. Valente. So I am going to preface this by saying 
something similar to what I said about housing. We have an 
expert behind us from the National Alliance to End Sexual 
Violence, and I would love to be able to connect them with--
after the hearing, because they can provide so much more 
information.
    But the rape kit backlog is a very important piece. VAWA 
has played a very important role in--in making that increase 
occur. There have been pilot programs under VAWA that have 
really gone into communities and examined better ways of making 
sure that that backlog is--is taken care of, that in the future 
we don't build up a similar backlog.
    And while I am at it, I am going to make a shameless plug 
for sexual assault services, because while they are authorized 
in VAWA, they are not authorized at the same levels as some of 
the other services, and they can certainly--we need that 
support. We need those programs to be expanded. We need rape 
prevention and education to be expanded because then we won't 
even need rape kit backlogs programs.
    What we are really looking at is getting youth, children 
and youth, to really understand healthy relationships, to 
understand consent, to understand how not to commit these 
crimes in the future, to respect the dignity of others. That is 
a piece of VAWA that was cut in the last reauthorization. We 
are still not quite sure why, and we would love to see that 
funding not just restored, but increased. It is a program that 
goes out to all of the states. It is seriously underfunded. The 
authorization level, we hope, could be raised to $150 million 
to give every State and territory access to that important 
program.
    Mr. Cohen. Thank you very much. In my last seconds before I 
have gone over, I just want to give credit to Senator--former 
Senator Joe Biden, who was the original sponsor of this. He 
wasn't always perfect on women's issues back in the day, but he 
was certainly right on this one.
    Ms. Valente. Absolutely.
    Mr. Cohen. And Louise Slaughter, who was the House sponsor 
and deceased, but was a great Member, and I think Steny Hoyer 
had something to do with it. He certainly talks about it a lot.
    Ms. Valente. Yes.
    Mr. Cohen. I yield back the balance of my time.
    Ms. Dean [presiding]. The chair recognizes the gentlewoman 
from Florida for 5 minutes, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam chair. I am sure that 
others have already emphasized this point, but I want to 
reiterate how important VAWA is, working with victims, their 
families, dealing with the impact of violence in their lives, 
providing the resources necessary for law enforcement, 
education, educating communities, preventing crimes.
    I come from a family of women. I am the youngest of four 
sisters. We have about 15 women in my family, between nieces 
and sisters and parents, mothers. And I think that most women 
can actually attest to always being in that fine line of having 
relationships where if the line is crossed, you can be in an 
extremely dangerous situation. So that is why VAWA--
reauthorizing VAWA is critical.
    Between 2013 and 2015, the Department of Justice estimates 
that VAWA programs provided over 1 million services to victims 
across the Nation. In Florida alone, nearly 16,000 individuals 
received emergency shelter at a domestic-violence center just 
last year. And nearly 40,000 men, women, and children received 
outreach services relating to domestic violence.
    Thanks to the 2013 reauthorization, VAWA was--has advocated 
for victims in the LGBTQ community and made efforts to help 
Native Americans and--on their Tribal reservations. I would 
like to start from looking at some of the past testimony. I 
wanted to start asking this question from Ms. Valente. Does the 
NTF have concerns about Title 9 being undermined by the 
Department of Education?
    Ms. Valente. Yes. And again, I am not the expert on this 
particular issue, but we have--we have been closely watching. 
We have submitted comments on this. All of our member 
organizations have. The Obama administration's guidance on 
Title 9 was very, very helpful, and really made a sea change. 
We are concerned about a successful series of protocols and 
guidances being undermined, or undone. And so we do want to see 
those protections.
    Ms. Mucarsel-Powell. And are your concerns connected to the 
attempts to weaken the protections and civil rights for campus-
violence survivors?
    Ms. Valente. That is a large portion of our concern. A lot 
of what goes on is--it is important for universities to take a 
very strong and--and powerful stance against these crimes. And 
to also make it clear to folks that these crimes are occurring 
when they do, that they report them appropriately, that they 
respond, that they change their protocols. We want to see that 
continue. We don't want to see--go back to the days where no 
one did report these crimes on campus, because there was no 
good outcome, other than the victim possibly being expelled, or 
having to leave--not expelled, but having to leave the campus 
because no supports were being given.
    Ms. Mucarsel-Powell. And do you think it is critical for us 
to include in the resources that we allocate for some of these 
educational programs, to be directed specifically to on-campus, 
sexual assault education programs?
    Ms. Valente. We have programs that will do that work. And 
you know, fully--you know, authorizing healthy amounts for 
these programs in VAWA, are going to really have an impact on 
that. We have requests that we have put in for those numbers, 
and again, we have experts behind me. I feel--I worry about 
committing malpractice at times, because this is not my 
particular--I don't have the numbers right before me. But I do 
know that we have asked for support for these programs, that we 
need more work being done in that arena.
    Ms. Mucarsel-Powell. Thank you, Ms. Valente. And a quick 
question to Judge Gonzalez--thank you for being here--can you 
talk about a little bit how VAWA has helped your work with law 
enforcement on cases involving domestic violence, sexual 
assault, dating violence, and stalking?
    Ms. Gonzalez. Okay. I have had the opportunity, because of 
the funding from VAWA, to be in the room with law enforcement 
judges from all over the country, where we come together and we 
learn from each other about what it is that needs to happen, in 
order for both of us to hear what the other one is saying, so 
that we are talking in the same language, so that victims 
understand that we are not--we all understand our parts, right? 
But we are working together to make the community safer and to 
make them safer. We are not enemies in this fight. We are--we 
are compatriots, and I think it works--without that funding, I 
think it is a little harder to do that job.
    Ms. Mucarsel-Powell. Thank you, Judge.
    I yield back my time.
    Ms. Dean. The chair now recognizes myself for 5 minutes. I 
am Madeleine Dean. from Pennsylvania, and I am pleased for this 
opportunity to speak with all of you today on the 
reauthorization of this historic piece of legislation.
    VAWA provides vital resources to support victims, hold 
offenders accountable, and keep communities safer. Domestic 
violence is an insidious problem that affects far too many 
people across this country. As the statistics reveal, one in 
four women, one in seven men, will be the victim of violence by 
an intimate partner in his or her lifetime.
    Each reauthorization of VAWA has made important 
improvements leading to tangible results. Between 1994 at its 
inception, as written by Vice President Biden, and 2012, the 
rate of domestic violence decreased by 63 percent. From 1996 to 
2015, the rate of women murdered by a man in single-victim, 
single-offender incidents dropped by 29 percent.
    The most critical factor enabling a victim of domestic 
violence to escape further abuse is the ability to obtain 
physical separation, as you all well know. While in the 
Pennsylvania State House, I cared deeply about this issue and 
supported different pieces of legislation and authored some. So 
I will throw this out to you.
    I am going to give you three areas of interest where you 
could give us some guidance on how we can strengthen, in the 
reauthorization, VAWA. And if you might, I will throw them at 
you. I apologize, it is large, our time is limited. But in the 
area of gun violence, how is it that we could--you saw that 
last week, we passed two important gun bills, one to close the 
Charleston loophole and one to expand background checks, to 
make them more universal.
    So in terms of gun violence and domestic violence, how can 
we strengthen that issue within VAWA? In terms of housing, as a 
member of the Pennsylvania legislature, I authored legislation 
that I was never able to pass, to allow victims of domestic 
violence, either a lock change or early termination of a lease. 
What could we do under VAWA in terms of housing help?
    And also, I am a member of the Pennsylvania Commission for 
Women, and under Governor Wolf's tenure, he and we put together 
a package of bills to try to get at the scourge of domestic 
violence on college campuses. The bill that I authored had to 
do with amnesty for a good samaritan or somebody reporting 
domestic violence. So having used half of my time, I would like 
to throw it back to you and--and end with this--well, I will 
throw it back to you. Housing, gun violence, and sexual assault 
on campuses. How can we make this bill stronger?
    Ms. Valente. Well, as you might guess, I am happy to take 
the gun-violence question. The things that we really need are 
that dating-violence prohibitor, because we have 50 percent of 
domestic violence--victims who are reaching--who are 
experiencing domestic or dating violence who are not covered 
under current law. And that means that the same terrible acts 
can happen, the same physical violence, but if you are married, 
formerly married, cohabiting, formerly cohabiting, or have a 
child in common, you will get that protection. And if you are 
dating, and do not fit any of those categories, you do not get 
that protection. It simply doesn't make any sense.
    Similarly, adding the stalking prohibitor, because we know 
of the lethality of stalking. Stalking is the greatest red flag 
in the domestic-violence arena, of escalating violence and 
lethality.
    Ms. Dean. Thank you.
    On housing, sexual assault on campuses?
    Ms. Beck. I will be quick. About college domestic violence, 
I know a lot of colleges, universities, schools, are--they are 
instituting gender-neutral spaces which actually mean mixed-sex 
spaces. You, yourself, just said that it is important for 
victims, or potential victims, to be physically separate from 
their attacker or their potential abuser. So gender-neutral 
spaces on colleges and universities actually put in danger 
women who are trying to escape from male abusers.
    Ms. Dean. Thank you.
    Ms. Gonzalez. I would like to speak to the housing issue. I 
think I probably seem like a broken record so far. But being 
able to have some protection so that you are not evicted from 
your residence because there has been a crime that has been 
committed, and having more access to vouchers is great. But if 
I can't find a landlord who is going to look beyond the 
domestic violence, beyond the previous eviction for what 
happened, then we are still not going to find that housing.
    Ms. Dean. I appreciate that. Thank you all for your 
important testimony today, and I want to just end on this note. 
It is a quote by Joe Biden, just recently. He was the father of 
this legislation 25 years ago, and he says, and I quote, ``When 
I wrote the Violence Against Women Act in 1994, I believed it 
would be a lifeline, but this Congress has turned it into a 
political football. It is time to pass a strong reauthorization 
of the Violence Against Women Act. No more stalling. Lives are 
on the line.''
    I couldn't agree more.
    I would like to recognize Mrs. McBath for 5 minutes.
    Mrs. McBath. Thank you so much.
    I just have one more question. And I wanted to ask both 
Judge Gonzalez and Ms. Valente: How can we ensure that the 
Violence Against Women Act is effective in protecting members 
of the LGBTQ community who have been experiencing domestic 
violence at similar rates that we have heard today, and 
sometimes higher rates than heterosexual women, and what role 
do judges and policymakers have to ensure inclusiveness?
    Ms. Valente. I am happy to start with what--some of goes on 
in the requests in the 2013 VAWA, just to explain the history 
of why we ask for these provisions. And that is, with each 
VAWA, we realize more and more that survivors need gateways to 
get to help. Survivors rarely call the police first. You know, 
only in cases of extreme physical violence is that going to be 
the first response. People will go to their faith communities. 
They will go to other kinds of organizations for which they 
feel an affiliation, and they are going to be seeking help 
there. They will go to medical offices and hospitals, seeking 
help.
    And so what we have tried to do in VAWA is be really aware 
and make sure that we provide funding and support for those 
programs that are existing outside of the traditional shelter 
context. In some cases, that was the LGBT programs, which could 
not have received funding before, as other population-specific 
programs may not have been able to do, like programs that work 
with immigrants. Yet that is the place where somebody's going 
to go and ask for help. So VAWA added that, in that spirit of 
understanding that certain populations will want to go to 
certain gateways, and that we need to provide that in there.
    Mrs. McBath. Thank you.
    Ms. Gonzalez. You know, it is unfortunate that we decided 
to make this a women issue, because this is a humanity issue. 
When we talk about LGBTQ families, we are talking about 
individuals who are living their lives just like everybody 
else--in loving relationships that they want to keep. But the 
violence interferes with that relationship, and what they want 
is the violence to stop. It is hard enough when you are living 
in a--what seems to be a normative relationship with everybody 
else, that you are in a man-woman relationship, but it is still 
hard to come forward and say that there is violence in your 
house.
    But when it is two men, or when it is two women, or when it 
is something that is outside of the norm, and perhaps not 
recognized by a majority of who you associate with, it becomes 
even harder.
    VAWA needs to grow. VAWA needs to be inclusive. And VAWA 
needs to include all, if the violence is going to stop. Because 
unless we do that, then children will be traumatized, 
communities are not going to be safe, and when law enforcement 
goes to the door, they are still going to be more at risk than 
any other time for any other call.
    Ms. Dean. The additional time of the gentlelady has 
expired, but I wanted to make sure, Ms. Beck, did you want to 
respond?
    Ms. Deer. Can I?
    Ms. Dean. Yes, Professor.
    Ms. Deer. In many of our Tribal communities, we have what 
we call two-spirit people, who are LGBTQ people. Two-spirit 
people traditionally have been held in very high regard by many 
of our Tribal societies, and--and are in some places spiritual 
leaders and healers of the community. And so I would certainly 
be interested in a Violence Against Women Act that continues to 
honor the role of our two-spirit relatives. Thank you.
    Ms. Dean. Thank you, everyone. This concludes today's 
hearing. Thank you to our distinguished witnesses for 
attending.
    Without objection, all members will have five legislative 
days to submit additional, written questions for the witnesses 
or additional materials for the record. The hearing is 
adjourned.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
